Office of Inspector General
Audit Report



Information Technology

EPA Management of
Information Technology Resources
Under The Clinger-Cohen Act

Report No. 2002 - P - 00017

September 30, 2002
Inspector General Division
 Conducting the Audit:                     Information Technology Audits Division

Program Offices Involved:                  Office of Environmental Information
                                           Office of the Chief Financial Officer
                                           Office of Enforcement and Compliance Assurance
                                           Office of Air and Radiation
                                           Office of Solid Waste and Emergency Response
                                           Office of Water

Audit Team Members:                        Jim Rothwell, Project Manager
                                           Jim Haller, Technical Support
                                           Ernest Ragland, Auditor
                                           Michael Young, Auditor
                                           Robert Shields, Auditor
                                           Robert Smith, Auditor



Abbreviations

CIO                 Chief Information Officer
CPIC                Capital Planning and Investment Control
CTO                 Chief Technology Officer
DCIOT               Deputy CIO for Technology
EPA                 U.S. Environmental Protection Agency
GAO                 General Accounting Office
ICIS                Integrated Compliance Information System
IRM                 Information Resources Management
IIS                 Information Investment Subcommittee
IT                  Information Technology
I-TIPS              Information Technology Investment Portfolio System
OEI                 Office of Environmental Information
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
RCRAInfo            Resource Conservation and Recovery Act Information Management System
SDWIS/STATE         Safe Drinking Water Information System/State Version Modernization Effort
SMP                 System Management Plan
VPN                 Virtual Private Network
                                                     EPA Management of Information Technology
                                                         Resources Under The Clinger-Cohen Act

                           Executive Summary
Introduction
          In 1996, the U.S. Congress enacted the Clinger-Cohen Act (Act), initially known as the
          Information Technology Management Reform Act, to improve the management of
          federal agencies’ information technology (IT) resources. The Act requires each agency
          head to develop and implement a process for maximizing the value of and assessing and
          managing the risks of IT acquisitions. This process is known as the IT Capital Planning
          and Investment Control (CPIC) process. The CPIC process relates to an agency’s
          selection of information technology investments, the management of such investments,
          and the on-going evaluation of funded investments. The Act requires the Chief
          Information Officer (CIO) to establish an Enterprise Architecture and to use it as part of
          the CPIC process. The Enterprise Architecture establishes the entity-wide road map to
          achieve an agency’s mission. An agency’s capital planning and control process must
          build from its current Enterprise Architecture, and support the transition from its current
          to target architecture.

Objectives
          We audited to determine whether:

           C EPA has established a CIO position with sufficient authority and administrative
             controls to effectively manage IT resources Agency-wide.

           C EPA’s CIO has adequately:
               T managed and controlled investments using a comprehensive IT CPIC
                  process;
               T developed and maintained an Enterprise Architecture;
               T monitored IT investment projects and provided standard tools and practices
                  for managing system development projects; and
               T coordinated with the Chief Financial Officer to help provide sufficient
                  direction and guidance to Agency management regarding cost effective
                  acquisitions.

Results in Brief
          EPA’s CIO has sufficient authority to shape and direct Information Resource
          Management (IRM) activities. Nevertheless, past CIOs have not provided the
          leadership needed to fully implement the changes required by the Act. Since
          established in 1998, EPA’s CIOs have taken some actions to implement and
          institutionalize the Agency-wide authority and responsibilities for IT capital
          investments. Yet many strategic planning and development activities only started in


                                                 i
                                                                              Report No. 2002-P-00017
                                           EPA Management of Information Technology
                                               Resources Under The Clinger-Cohen Act

fiscal 2001. A first step in addressing EPA’s planning needs was the CIO approval of
an updated EPA Strategic Information Plan on July 29, 2002.

EPA’s new CIO recognizes the importance of the issues raised in this report and is
taking aggressive steps to address the Act’s fundamental components. For example,
in May 2002, the CIO established a Chief Technology Officer position to coordinate,
implement, and advise on the Strategic Technology Plan, Agency Architecture,
E-government activities and IT investments. Also, in June 2002, the Deputy CIO for
Technology (DCIOT) was assigned responsibility for establishing and publishing
standards and procedures based on the Act. However, institutionalizing structured,
centralized controls and oversight processes will take additional effort and resources.
Some program managers have not taken the Act seriously and have viewed its
requirements as another step to satisfy the annual OMB budget call.

Several key factors continued to limit the realization of a successful program:

• Senior program managers continued to use outdated and unauthorized IT
  acquisition practices, because Agency IT policies conflicted with the Act’s
  requirements and the CIO’s authority.

• The Agency was still developing its Enterprise Architecture Plan, and had not
  established a formal chain of command, either through policies or formal
  delegation, from the CIO to the Chief Technology Officer, DCIOT, and Chief
  Architect. In particular, formalization of the Chief Technology Officer and Chief
  Architect positions will help ensure sufficient management authority and resources
  to implement the Act. Also, position descriptions for all three roles should be
  updated to address respective responsibilities for the development of an Enterprise
  Architecture and execution of related IT activities.

• EPA had not implemented a CPIC performance-based measurement system for
  assessing and managing risks of IT acquisition, and implementing, monitoring and
  evaluating IT projects.

EPA is in the process of implementing an IT cost accounting system to support such
areas as IT budget reporting, project management, and system life cycle management.
Project cost accounting is a critical management tool for EPA to achieve acceptable,
efficient and effective accounting, budgeting, and procurement of IT investment
projects.

With regard to the fiscal 2002 budget, we believe the CIO had minimal assurance that
IT investments reported to OMB would maximize their value. Moreover, the CIO had
little assurance that these investments were adequately assessed for risk factors, that
risks were being managed, or that products were procured consistent with the Act’s
requirements. EPA reported investments that totaled more than $449 million for the

                                      ii
                                                                    Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

        fiscal 2002 budget. Our review showed that EPA continued to spend millions on IT
        investments that appeared to be making minimal or insignificant progress. During the
        period under review, EPA’s IT investments were not maximizing the efficiency of IT
        operations nor resolving long-standing problems, such as integration of environmental
        data. Existing IT contracts, with a maximum value totaling approximately $1.6 billion,
        can be awarded new work without proper delegated authorization from the CIO.
        Furthermore, EPA continued to award new IT contracts without required CIO
        approval.

Recommendations
        Improving the fundamental issues addressed in this report will require a series of inter-
        related corrective actions. To help EPA management plan for and channel its resources
        in a methodical manner, we prioritized the recommendations listed in Chapters 2
        through 6 of this report. The most prominent recommendations are summarized below.
        The CIO will need to complete and implement these actions in order to improve the
        way EPA’s IT investments are assessed, managed, and evaluated.

        • Revise outdated policies to remove unauthorized IT business practices and add new
          requirements.

        • Formally re-delegate authority and responsibilities for implementing the Clinger-
          Cohen Act to the Chief Technology Officer and, in turn, further re-delegate to the
          Chief Architect the management authority and responsibilities for maintaining an
          Enterprise Architecture.

        • Establish and update policies for the Enterprise Architecture and execution of
          related IT investment activities under the Act.

        • Implement an automated project management system.

        • Implement individual project monitoring and evaluation processes for IT
          investments.

        The CIO also will need to work with other Agency officials to establish delegations,
        policies, and procedures for IT procurements.

Agency Comments and OIG Evaluation
        We received comments from EPA’s CIO, Comptroller, Assistant Administrator for
        Solid Waste and Emergency Response, and the Director, Information Transfer and
        Program Integration Division of the Office of Air and Radiation. We amended the
        report based on these responses, as well as additional discussions with appropriate
        management officials.


                                             iii
                                                                           Report No. 2002-P-00017
                                           EPA Management of Information Technology
                                               Resources Under The Clinger-Cohen Act

The CIO agreed with our emphasis on the importance of an effective IT investment
management program and agreed to continue to aggressively address issues identified
by the report. The CIO noted substantive accomplishments toward that goal, such as
establishing new policies, promulgating a new information strategic plan, hiring a Chief
Technology Officer, employing a risk-based process for IT investments, and
establishing a cost tracking system.

While we agree that EPA has taken significant initial steps to address the report’s
findings and recommendations, there are still significant recommendations that need to
be addressed, such as implementing an automated system to manage the CPIC
process. Also, authorities and responsibilities for the Chief Technology Officer and
Chief Architect need to be incorporated into Agency policy, and resources need to be
dedicated to complete and maintain EPA’s Enterprise Architecture. The CIO has
established an ambitious schedule to address this report’s recommendations, and it will
require EPA to continue dedicating significant resources.

The Comptroller responded that his office was working with an Office of Environmental
Information workgroup to ensure consistent treatment of IT costs with common system
life cycle stages. The Comptroller did not agree to amend existing IT contracts and
stated that the interim policy announcement provided adequate controls. We still have
concerns about the adequacy of the new cost accounting process for categorizing
project costs by life cycle phases. However, we will defer making formal
recommendations until a more detailed assessment of the new process can be
competed as part of the Fiscal 2002 financial statements audit.

The Assistant Administrator for Solid Waste and Emergency Response, and the
Director for the Office of Air and Radiation’s Information Transfer and Program
Integration Division, both disagreed with our conclusion that project management
controls were inadequate. We did not review all project management controls, but we
did document inaccurate and/or unsupported information being reported as part of the
budget for the IT system projects. We also found that the projects did not comply with
existing Agency systems development life cycle policy documentation requirements.
We consider these to be significant project management weaknesses.




                                      iv
                                                                    Report No. 2002-P-00017
                                                                         EPA Management of Information Technology
                                                                             Resources Under The Clinger-Cohen Act


                                    Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Chapters
1      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

2      CIO Needs to Fully Implement Clinger-Cohen Act Requirements . . . . . . . . . . . . . . 5

3      Weaknesses in CPIC Process Place EPA’s IT Investments at Risk . . . . . . . . . . . 11

4      EPA Needs to Organize and Integrate Planning for IT Investments . . . . . . . . . . . . 19

5      EPA Needs to Strengthen IT Project Management Controls . . . . . . . . . . . . . . . . . 29

6      Project Cost Accounting System Vital for
        Planning and Managing IT Investments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37


Appendices
1      Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

2      Office of Environmental Information’s Response to Draft Report . . . . . . . . . . . . . . 45

3      Office of the Chief Financial Officer’s Response to Draft Report . . . . . . . . . . . . . . 67

4      Office of Air Quality Planning and Standards’
        Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71

5      Office of Solid Waste and Emergency Response’s
        Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73

6      Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75




                                                                     v
                                                                                                            Report No. 2002-P-00017
     EPA Management of Information Technology
         Resources Under The Clinger-Cohen Act




vi
                          Report No. 2002-P-00017
                                                     EPA Management of Information Technology
                                                         Resources Under The Clinger-Cohen Act

                                  Chapter 1
                                   Introduction

Purpose
          The audit’s objectives were to determine whether:

           C       EPA had established a Chief Information Officer (CIO) position with sufficient
                   authority and administrative controls to effectively manage Information
                   Technology (IT) resources Agency-wide;

           C       EPA’s CIO had adequately:

               T      Managed and controlled investments using an IT Capital Planning and
                      Investment Control (CPIC) process, including a determination of whether
                      investment decisions minimize the risk to the Agency, provide a positive
                      return on investment, and satisfy the Clinger-Cohen Act requirements;

               T     Adopted the Federal Enterprise Architecture Framework components
                     necessary for developing and maintaining an Agency Enterprise Architecture,
                     as prescribed by the Office of Management and Budget (OMB) and the
                     Federal Chief Information Officers Council;

               T     Monitored IT investment projects and provided standard tools and practices
                     for managing system development projects; and

               T     Coordinated with the Chief Financial Officer to help provide sufficient
                     direction and guidance to Agency management to ensure IT investments
                     were acquired in a cost-effective manner.

Background and Criteria
          Act Established CIO Role and CPIC Process

          The Clinger-Cohen Act of 1996 (Public Law 104-106) intended for a central process,
          led by a CIO, to manage IT investments across an agency. Since 1996, EPA has
          taken two significant actions to implement the Clinger-Cohen Act. In 1998, EPA’s
          Administrator established the CIO position through Delegation 1-84. The Delegation
          assigned responsibility to exercise all responsibilities of the CIO pursuant to the Clinger-
          Cohen Act, such as establishing an IT Architecture and an IT CPIC process. Then, in
          1999, EPA reorganized its Agency IT management, and established an Office of
          Environmental Information (OEI) and a Quality Information Council.

                                                 1
                                                                               Report No. 2002-P-00017
                                          EPA Management of Information Technology
                                              Resources Under The Clinger-Cohen Act

The Act requires the CIO to implement a CPIC process for maximizing the value and
assessing and managing the risks of an agency’s IT acquisitions. The CPIC process is
to provide for the selection of investments using minimum criteria, both quantitative and
qualitative, for comparing and prioritizing alternative information systems projects. In
addition, the CPIC process must provide a means for senior managers to obtain timely
information regarding progress (at established milestones).

The Act identifies numerous requirements and responsibilities for the agency head,
CIO, and other key officials. Specific responsibilities for the CIO include:

• Developing and implementing a sound and integrated Enterprise Architecture;

• Monitoring and evaluating the performance of IT programs based on defined
  measurements, and determining whether to continue, modify, or terminate a
  program or project;

• Implementing and enforcing applicable government-wide and Agency IT
  management policies, principles, standards, and guidelines;

• Acquiring and managing information resources in a manner consistent with Federal
  laws and internal policies and procedures.

• Integrating Information Resources Management (IRM) operations and decisions
  with organizational planning, budget, financial management, and program decisions;

• Developing a full and accurate accounting of IT expenditures, related expenses, and
  results; and

• Establishing a process to select, control, and evaluate the results of major
  information system initiatives.

Law and OMB Circulars Further Define Requirements

Under Title 44, U.S. Code, Section 3506, agencies are responsible for developing and
maintaining an IRM strategic plan, as well as a current and complete inventory of its
information resources.

OMB Circular A-130, Management of Federal Information Resources, requires the
CIO to: (1) prepare and update a cost-benefit analysis for each information system, as
necessary throughout its life cycle; (2) conduct cost-benefit analyses to support ongoing
management oversight processes; (3) conduct post-implementation reviews of
information systems to validate estimated benefits and document effective management
practices; and (4) establish information system management oversight mechanisms.
This Circular also emphasizes that IRM planning should help the Agency link IT to
mission needs. Furthermore, IRM planning should coordinate with other agency

                                      2
                                                                    Report No. 2002-P-00017
                                          EPA Management of Information Technology
                                              Resources Under The Clinger-Cohen Act

planning processes, including strategic, human, and financial resources. The agency
should employ mechanisms to ensure that major information systems proceed in a
timely fashion towards agreed-upon milestones, meet user requirements, and deliver
intended benefits to the agency and the public.

OMB Circular A-11, Preparing and Submitting Budget Estimates, lists
requirements for preparing and submitting IT budget estimates, including requirements
to evaluate full life cycle costs, benefits, and Return on Investment.

CIO Council Addresses Best Practices and Provides Guidance

Federal CIO Council, Capital Planning and IT Investment Committee,
Implementing Best Practices, dated June 1998: The 24 major Federal agencies
participated in a Best Practices Workshop highlighting their approaches for selecting,
controlling, and evaluating critical IT investments.

A Practical Guide to Federal Enterprise Architecture, Version 1.0, February
2001: This guide states that an Enterprise Architecture establishes the agency-wide
road map to achieve an agency's mission through optimal performance of its core
business processes within an efficient IT environment. The Chief Architect, in
conjunction with the CIO and select Agency business managers, defines the
architectural principles that map to the organization’s IT vision and strategic plans. As
shown in Figure 1, architectural principles should represent fundamental requirements
and practices believed to be good for the organization.




                      Figure 1. Role of Architecture Principles




                                      3
                                                                    Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

        EPA Delegation for CIO

        EPA Delegations Manual 1200, 1-84, Information Resources Management, dated
        December 18, 2001, specifically requires the CIO to:

        (1)     Approve the Agency's IRM Strategic Plan, Five-Year IRM Implementation
                Plan, IRM investment portfolio, and IRM contracting strategy;
        (2)     Establish policies and procedures for the management and security of records,
                files, data, and information systems and technology;
        (3)     Approve the acquisition of information technology resources; and
        (4)     Establish and maintain a continuing program for the management and security of
                records, files, data, and information systems and technology.

        Authorities (3) and (4) above were re-delegated on June 13, 2002, to OEI’s Director
        for Technology Operations and Planning. These authorities may be re-delegated
        further to Assistant Administrators, Regional Administrators, the Chief Financial Officer,
        and other senior Agency officials. Moreover, these officials may further re-delegate
        authorities within their respective organizations.

        EPA Requirements for Software Development

        EPA Directive 2100, IRM Policy Manual, establishes a policy framework for IRM
        programs at EPA. In particular, Chapter 17, System Life Cycle Management,
        identifies life cycle requirements for information systems projects. These requirements
        include the System Management Plan, cost-benefit analysis, and a risk analysis at each
        stage of the system development life cycle. Chapter 17 also prescribes that a system
        charter be developed during project initiation, including an estimate of life cycle costs,
        and identifying the appropriate management levels for approving decision papers. A
        System Management Plan decision paper should be produced at the conclusion of the
        analysis stage and should be updated as the project progresses.

Scope and Methodology
        We conducted this audit at EPA Headquarters in Washington, DC, starting in January
        2001 and issued a draft report in April 2002. Subsequent to the draft report, we
        updated portions of the findings to reflect recent Agency accomplishments. We
        performed our audit in accordance with the Government Auditing Standards, as
        issued by the Comptroller General of the United States, and included such tests as
        necessary to complete our objectives. Exhibit 1 details our scope and methodology, as
        well as prior audit coverage.




                                              4
                                                                            Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

                                 Chapter 2
              CIO Needs to Fully Implement
             Clinger-Cohen Act Requirements

         EPA’s CIO needs to demonstrate strong leadership by providing IT technical expertise
         and a workable investment management structure to ensure the Agency’s many
         program offices implement the IT capital investment process envisioned by the Clinger-
         Cohen Act. While EPA has taken steps to implement Clinger-Cohen functions, many
         aspects continue to evolve, with plans, policies, and guidance still in development. EPA
         did not effectively manage its IT investments from an Agency-wide perspective;
         however, it recently established a Chief Technology Officer to provide leadership and
         implement a comprehensive IT investment program. For the period under review, we
         found that program officials were still operating under invalidated IT acquisition policies
         and procedures that allowed them to individually make investment decisions. EPA
         appeared to be using a slowly evolving, volunteer-based, and decentralized approach
         to developing, supporting, and managing IT capital investments. In addition, the lack of
         a monitoring process allowed projects to be executed without a minimum level of
         management controls. Finally, some program managers did not take the Act seriously
         and viewed the Agency requirements as another step to satisfy the annual OMB budget
         call.

CIO Relies on IT Budget Instead of Investment Portfolio Process
         The CIO used the Fiscal 2002 annual budget call to plan IT investments. The Act
         intended that the CIO establish a performance-based system for implementing, monitoring
         and evaluating IT projects. The Agency’s IT investment process was primarily a budget
         reporting process. It was used to meet OMB IT program annual reporting requirements
         and to recommend an annual budget for major systems investment projects. Financial
         management, procurement, and project management controls were not adequately
         integrated into the Agency’s CPIC process. Moreover, project management practices
         were inconsistent throughout the Agency. Numerous examples demonstrated that the
         peer review used objective, yet constantly evolving, criteria for evaluating investment risk.
         While the peer review process adequately quantified and documented risk
         determinations, we could not substantiate the basis for Information Investment
         Subcommittee’s (IIS) decisions to (1) lower the risk determinations assigned to some
         investment proposals, and (2) make recommendations for funding them to the Quality
         Information Council and CIO.

Investment Portfolio Structure Missing Fundamental Elements
         In 1998, EPA established a CIO position. In 1999, EPA created the OEI and
         reorganized its IRM structure. However, more than 5 years after implementation of the

                                               5
                                                                             Report No. 2002-P-00017
                                         EPA Management of Information Technology
                                             Resources Under The Clinger-Cohen Act

Act, EPA still had not sufficiently implemented some fundamental elements of a
centralized investment portfolio structure (strategic IRM plan, CPIC process, Enterprise
Architecture, and cost accounting process). Specifically:

• Senior Agency program managers continued to use outdated and unauthorized IT
  investment practices. Policies and procedures, such as EPA Directive 2100, need to
  be revised to incorporate new CIO responsibilities relating to IT procurement,
  systems development life cycle, project management, cost accounting, and budget.

• EPA’s IRM Strategic Plan dated back to 1994, and did not reflect Clinger-Cohen
  Act requirements. However, on July 29, 2002, the Agency updated the plan and
  issued the EPA Strategic Information Plan: A Framework For The Future.

• Leadership and organization for developing the Enterprise Architecture changed
  significantly over the past two fiscal years.

   T Until the fall of 2001, the Agency budget submission included the architecture
     project as a component of infrastructure proposals and, as such, was under that
     leadership. In its fiscal 2003 budget submission, EPA identified it as a separate
     architecture project and intensified efforts to complete the baseline and target
     architectures.

   T In February 2002, the CIO announced a Chief Architect position to manage the
     development of an Enterprise Architecture. Then, in May 2002, the CIO
     established a Chief Technology Officer position to coordinate, implement, and
     advise on numerous IT investment management activities, including the Agency’s
     architecture. Also, through EPA’s CPIC policy, the Deputy CIO for
     Technology (DCIOT) was assigned responsibility for establishing and publishing
     standards and procedures for the Agency Architecture, E-government activities,
     and IT planning. These are positive actions, but the Agency has not yet
     established a formal chain of command from the CIO to the Chief Technology
     Officer, DCIOT, and Chief Architect. Formalization of the Chief Technology
     Officer and Chief Architect positions would help ensure sufficient management
     authority and resources to implement the Act.

   T EPA believes it will be able to complete the Enterprise Architecture baseline,
     target, and sequencing approach by October 2002. However, we have not
     reviewed the recently-completed draft baseline, and have not evaluated whether
     available resources will enable the Agency to achieve this milestone.

• Senior managers could not obtain timely and accurate cost, benefit, and performance
  information on IT projects. In 2001, EPA purchased a service level agreement to
  use off-the-shelf software called Information Technology Investment Portfolio
  System (I-TIPS), a federally-sponsored software product, for monitoring and


                                     6
                                                                  Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

            evaluating IT projects in the CPIC process. EPA indicated it has assigned resources
            for implementation, developed milestones for production, and will use the software to
            generate automated reports to OMB for the 2004 budget submission. Furthermore,
            management states that I-TIPS will be expanded agency-wide in 2003.

         • Actions are needed to strengthen IT project management controls. Program
           managers used inconsistent management tools, and EPA had no standard project
           cost accounting system for providing useful data to project managers. Managers
           used outdated cost-benefit assessments or chose to omit the assessment as part of
           the system development process. Moreover, the CIO had not established
           monitoring or evaluation processes to ensure major information systems proceeded
           in a timely and cost-effective fashion, met user requirements, and delivered intended
           benefits to the Agency and affected public.

         These issues are covered in greater detail in Chapters 3 through 6.

EPA’s Process Creates Unacceptable Risk for IT Investments
         The absence of a fully-developed, centralized investment portfolio structure resulted in
         management’s:

         • inconsistent and undocumented evaluations - IIS approval of IT investment
           proposal projects which were documented as high risk by a peer review process,

         • inability to effectively monitor IT system development or enhancement projects’
           schedules and costs,

         • omission of investment benefit evaluations for completed IT projects, and

         • inability to document and account for IT project investment costs.

         The slowly evolving and decentralized approach that was being used to develop an IT
         investment control structure was not successful. EPA’s approach allowed IT projects to
         be funded without proper justification, and in the absence of adequate management
         controls. EPA invested resources on outdated systems that did not maximize the
         efficiency or resolve long-standing problems, such as integration of environmental data.
         For example, the Air Quality System spent over $8 million from fiscal 1996 through
         2001 for the project’s Phase 1. The fiscal 2001 budget submission for the project
         included a statement of intent to make modifications in Phase 2 to adapt the system to
         function with EPA’s Central Data Exchange portal and incorporate Agency data
         standards. However, these critical functional modifications were not addressed until
         fiscal 2002, about 6 years into the project.




                                               7
                                                                            Report No. 2002-P-00017
                                           EPA Management of Information Technology
                                               Resources Under The Clinger-Cohen Act

Conflicts between the EPA Delegation 1-84 and prior procurement policies caused
program and regional managers to award new IT contracts without proper CIO
approval. Also, existing IT contracts, with a maximum value totaling approximately $1.6
billion, can be awarded new work without proper authorization. Under EPA Delegation
1-84, the CIO is the only manager authorized to approve acquisitions of IT resources.
In June 2002, this authority was re-delegated to OEI’s Director for Technology
Operations and Planning. This authority can be re-delegated further. However, this
delegation conflicts with and invalidates prior EPA procurement policies and practices in
EPA Directive 2100.

Overall, there is a high risk that EPA’s technology investments will not result in significant
improvements in organizational efficiency and productivity, or enable EPA to work
better with states, tribes, local governments, private industry, and the general public.
EPA planned to spend approximately $449 million for IT investments in fiscal 2002, so
poor investment choices could have significant monetary ramifications. To avoid risk,
EPA must ensure that its target enterprise architecture is fully integrated with its
Government Performance and Results Act goals and objectives, IRM Strategic Planning,
and IT acquisition processes. Until this integration is achieved, EPA will continue to
struggle with its ability to reinvent organizational processes, integrate and manage data,
and build a scalable and reliable network architecture.

In its fiscal 2003 budget submission, EPA took the first step in consolidating duplicate
systems when it combined four modernization efforts into two investment proposals.
EPA’s process for evaluating investment proposals appears to consider data standards
requirements and system duplications; however, management must continue to
strengthen procedural controls to minimize effects of a weakly integrated process, such
as:

• IT investments that are not driven by business priorities and mission goals,

• investing in stovepipe and duplicate systems,

• IT investments that do not take advantage of technology advances and reduced
  costs,

• inefficient reporting processes for states and private industry users,

• application systems that do not comply with environmental data and interoperability
  standards, and

• not meeting increased public access and security requirements.

Until EPA fully implements the Act’s requirements, management will be unable to make
fully-informed decisions regarding IT investments.


                                       8
                                                                      Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act


Strong CIO Leadership Needed to Implement and Enforce Act
        Although it has been more than 5 years since the Clinger-Cohen Act was implemented,
        EPA has yet to comply fully with its statutory requirements. We believe this was due, in
        part, to the fact that EPA did not have a presidentially-appointed and Senate-approved
        CIO prior to December 2001. Although EPA reorganized its IRM office and
        established a CIO position, there was little change in the Agency’s IT operations or
        investment practices until recently.

        The lack of strong CIO leadership and a comprehensive investment portfolio structure
        perpetuated the Agency’s unsuccessful, decentralized IT investment process. The CIO
        should target key agency-wide problems through the CPIC process (e.g., integration of
        environmental data, electronic reporting, duplicate systems, Geospatial Information, data
        standards, and data management). The new CIO’s actions show that she agrees. For
        example, EPA used the CPIC process findings to stop operating funds for the
        Geographical Information Systems’ investment.

Recommendations
        We recommend the Chief Information Officer:

        2-1.    Assign sufficient resources and expertise to ensure timely and effective
                implementation of report recommendations.

        2-2.   Continue with strategy to develop and execute a comprehensive, prioritized,
               multi-year plan to address gaps and bring EPA’s IT policy collection to the
               “should be” state. In particular, the plan should include appropriate practices for
               the Enterprise Architecture, CPIC process, and IT acquisitions addressed in the
               Clinger-Cohen Act, OMB guidance, and EPA Delegation 1-84.

        2-3.   Continue to work with the Director for Acquisition Management to (a) direct
               contracting officers and other procurement personnel to only accept procurement
               requests with a formal CIO approval or officially re-delegated procurement
               authority; and (b) establish interim delegations, policies and procedures for IT
               procurement, until formal re-delegations are revised and implemented.

Agency Response
        The CIO agreed overall with the emphasis placed on establishing an effective IT
        resource investment program. However, the CIO identified specific findings and
        recommendations that the CIO did not believe reflected recent Agency
        accomplishments.



                                              9
                                                                           Report No. 2002-P-00017
                                                    EPA Management of Information Technology
                                                        Resources Under The Clinger-Cohen Act

OIG Evaluation
        We made changes to the report findings and recommendations based on the CIO’s
        response, acknowledging that accomplishments not previously noted were due to
        (1) recently-completed actions, and (2) EPA’s evolving IT investment process,
        procedures, and selection criteria. While we updated the report’s information based on
        management’s comments, we believe significant issues still need to be addressed to
        institutionalize the Act’s requirements. Establishing Agency policies and procedures is
        only the first step. Monitoring and evaluating IT investments against a set of minimum,
        critical criteria can ensure the institution is operating as desired for IT capital investments.
        Furthermore, formalizing the Chief Technology Officer and Chief Architect authorities
        and responsibilities should help ensure adequate resources are dedicated to the
        completion and maintenance of the Enterprise Architecture. Then, monitoring and
        evaluation of IT investments can provide a basis to recommend modifications to the
        Agency’s Enterprise Architecture. The CIO has established an ambitious schedule to
        address this report’s recommendations and, to succeed, EPA will need to continue
        dedicating significant resources for planning, procuring, monitoring, and evaluating IT
        investments.




                                               10
                                                                               Report No. 2002-P-00017
                                                 EPA Management of Information Technology
                                                     Resources Under The Clinger-Cohen Act


                               Chapter 3
              Weaknesses in CPIC Process
           Place EPA’s IT Investments at Risk

        The Agency’s CPIC process was inadequate to properly manage EPA’s IT investments.
        Most of EPA’s major fiscal 2002 IT investment proposal projects are high risk and
        operating with little oversight. Moreover, projects are not evaluated upon completion.
        In total, the fiscal 2002 budget submission indicated EPA was planning to spend $449.4
        million for IT investments, including $203.2 million for major projects. EPA’s fiscal
        2002 CPIC investment portfolio process was primarily a peer review risk assessment
        process that: used constantly evolving Agency-wide priorities for selection, provided
        little oversight of individual projects’ execution during the Control phase, and did not
        evaluate the adequacy of completed projects in an Evaluation phase. EPA’s fiscal 2003
        CPIC process was basically the same. As a result, as discussed in Chapter 2, the
        Agency may have invested resources on outdated systems that did not maximize the
        efficiency or resolve long-standing problems, such as integration of environmental data.
Numerous Documents Provide Federal Guidance
        OMB provides the primary Federal guidance in Circular A-130, Management of
        Federal Information Resources; Circular A-11, Preparing and Submitting Budget
        Estimates; and Circular
        A-94, Guidelines and
        Discount Rates for Cost-
        Benefit Analysis of
        Federal Programs. The
        CIO Council and General
        Accounting Office (GAO)
        have both published
        additional Federal
        guidance that describes
        the process. GAO
        provides an illustration of
        this process (see figure 2)
        in Information
        Technology Investment
        Management: An
        Overview of GAO’s
        Assessment Framework
        (Exposure Draft),           Figure 2. IT Capital Planning and Investment Control
        GAO/AIMD-00-155,                                    Process
        May 2000.


                                            11
                                                                         Report No. 2002-P-00017
                                                 EPA Management of Information Technology
                                                     Resources Under The Clinger-Cohen Act

Existing CPIC Process Inadequate to Manage
EPA’s IT Investments
        EPA’s IT CPIC process did not adequately select, control, and evaluate the appropriate
        mix of IT capital investments using objective, risk-based criteria consistent with the
        Agency’s Enterprise Architecture and IRM Strategic Plan. Under the current process,
        EPA’s Chief Financial Officer prepares three exhibits (52, 53, and 300b), at varying
        times of the fiscal year, for EPA’s annual IT Budget submission. OEI’s Information
        Investment Subcommittee (IIS) considers the results of an annual risk assessment review
        of the major investment proposals listed in Exhibit 300b and, during the Select phase,
        makes funding recommendations to the Quality Information Council and CIO.
        However, EPA’s CPIC process provides little oversight of individual projects’ execution
        during the Control phase and does not evaluate the adequacy of completed projects in
        an Evaluation phase, as recommended in Figure 2. The peer review risk assessment
        was the most substantive and documented process that EPA used to objectively manage
        annual IT investments. However, at the IIS review level, we found a decision process
        that lacked adequate evidence to (1) substantiate subjective executive decisions that
        differed from peer review recommendations, and (2) describe how discrepancies
        identified by the peer review were resolved.

        As such, Agency management planning and budgeting recommendations for fiscal 2002
        appeared to be based on IIS opinion, rather than the objective peer review risk
        evaluations. While the peer review process objectively quantified and documented risk
        determinations, we could not adequately substantiate the basis for the IIS votes which
        lowered the risk assigned to investment proposals by the peer review process.
        Nevertheless, the IIS recommended funding the proposals to the Quality Information
        Council and CIO. The same basic CPIC process was used for EPA’s fiscal 2003 IT
        Budget submission, although specific criteria for the peer review process changed. Our
        review of the three specific phases disclosed the following:

        Select Phase

        Recommendations Not Supportable or Justified. Many IIS recommendations were
        not supportable based on objective criteria. We evaluated information from EPA’s
        Exhibit 300b IT budget submission, the major IT project document; OMB’s risk
        analyses of that submission; and EPA’s internal CPIC Peer Review risk assessment.
        From those sources, we summarized the investment proposal responses, focusing on
        4 key risk factors for the 48 major IT proposals listed in EPA’s fiscal 2002 budget
        submission to OMB. We compared the 48 investment proposals to the results of EPA’s
        CPIC Peer Review risk assessment, OMB’s risk assessment report card, and our
        assessment for the 4 key control areas. OMB clarified that they considered projects to
        be high risk if they did not demonstrate compliance with key requirements, or the
        information provided was not sufficient to determine the risks. OMB’s risk assessment
        report card reflected that, overall, 89 percent of EPA’s major projects were high risk,

                                            12
                                                                         Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

     while EPA’s Peer Review assessed that only 8 percent were high risk. Our assessment
     concluded that all 48 proposals were high risk, based primarily on the fact that the
     Agency had not provided an Enterprise Architecture for IT managers to use in preparing
     IT investment proposals. In spite of not having an Enterprise Architecture, all the
     proposals nonetheless indicated they were aligned with an Architecture. Details on our
     comparison are in the following table.



                                    EPA Major Investment Proposals
                                       Key Project Risk Factors
                                             (Fiscal 2002)

                                                        OMB              OIG         Peer Risk
                                                                  1
                 Key Risk Factors                    Assessment       Assessment     Assessment

      Percentage of IT projects not aligned              100 %           100 %             N/A
      with Enterprise Architecture

      Percentage of IT projects not including              4%             33 %           56 %
      adequate security planning or when not
      clear

      Percentage of IT projects not including            100 %            56 %           40 %
      a completed current cost-benefit
      analysis or when not clear

      Percentage of IT projects not having                 N/A            48 %           42 %
      approved system management plan or
      when not clear

      Percentage of High-Risk                             89 %           100 %             8%
      IT Investment Proposals


     The IIS reviewed the internal risk assessments and agreed with the conclusions that
     some of these projects were high risk. Nevertheless, the IIS recommended to the
     Quality Information Council and the CIO that all 48 projects be recommended for
     funding in the fiscal 2002 budget submission. OEI told us that these projects were
     recommended for funding only after substantial corrective actions were taken to make
     the business case, and a fourth review of the project proposal was conducted.




1
   We calculated percentages based on raw data (# of projects) and footnote information
associated with the “major” projects (Steady State, Mixed and Development/Modernization/
Enhancement), as taken from documents provided to EPA by OMB regarding the Agency’s
fiscal 2002 IT budget submission (dated July 26, 2001).

                                              13
                                                                         Report No. 2002-P-00017
                                          EPA Management of Information Technology
                                              Resources Under The Clinger-Cohen Act

Significantly Deficient Projects Recommended for Funding. In spite of the risk
assessment process, all the projects with significant weaknesses were recommended for
funding in the fiscal 2002 and 2003 IT budget submissions. For example, major projects
were found to have significant weaknesses by the peer review process. The IIS
downgraded these projects from “red light” to “yellow light” in fiscal 2002, but we found
no evidence of how the significant deficiencies were resolved. In fiscal 2003, the peer
review process once again stated these projects contained significant weaknesses. Once
again, the IIS recommended them for funding. The documentation provided did not
contain clear, objective evidence from which we could conclude whether the cited
deficiencies had evolved during the 2-year span or simply remained unchanged. Our
analysis was confined by the fact that the risk assessments used different documentation
and evaluation requirements each year. The CPIC process should rely on one minimum
set of consistent objective criteria applied throughout all levels of the selection review
hierarchy.

Inconsistencies Noted. The narrative for the CPIC IT budget submissions were
unclear about the Enterprise Architecture and conflicted with the Agency’s fiscal 2002
Annual Performance Plan goals. For example, EPA’s key architectural project, the
Information Integration Program, refers to the Integrated Compliance Information System
(ICIS). The Enterprise Architect document states that ICIS is “being designed to
interface with only a few . . . legacy systems, but the technology is scalable . . . .”
However, the fiscal 2002 Annual Performance Goals discusses ICIS in terms of 14
existing systems. From these conflicting perspectives, it was not clear how the existing
legacy systems were to be integrated with the Enterprise Architecture strategic
framework.

Control Phase

EPA was not monitoring the execution of IT capital investment projects during the year,
thereby preventing the CIO from adequately managing ongoing IT investment projects.
In fiscal 2002, OMB established baselines to measure progress and performance for
projects’ scheduled milestones and costs estimates. OMB required that agencies explain
schedule slippages and increased costs greater than 10 percent. EPA reports this
information in annual Exhibit 300b reports. However, common industry practice is to
use a 4 week time frame for monitoring and measuring variances from the project plan.
In our opinion, the Agency should monitor the execution of its projects through periodic
reports (at least quarterly) that managers can use to identify emerging cost or schedule
problems and initiate compensating actions.

Evaluate Phase

The Agency did not perform any post-implementation reviews or evaluations of
completed IT projects. EPA’s OEI has taken steps to implement a Post-Implementation
Review Phase. In addition, management prepared a list of completed or terminated


                                     14
                                                                  Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

        projects that would require review for the first time during the fiscal year 2003 CPIC
        process.

CPIC Management Problems Stem from Several Causes
        Many factors have contributed to the ineffectiveness of EPA’s current CPIC process, as
        discussed below.

        CIO Needs to Institutionalize a CPIC Process

        In June 2002, EPA issued EPA Order # 2100.A.1 to formally recognize CPIC policies in
        the Agency Directives. As a next step, the CIO needs to establish Agency-related CPIC
        procedures and guidance.

        Insufficient Staff Dedicated to CPIC Process

        In our opinion, the CIO had not dedicated sufficient resources to administering a fully
        functional CPIC process. The lack of administrative and financial resources restricted
        EPA’s capability to implement a comprehensive system for managing its IT investment
        portfolio. The Agency’s IT program for fiscal 2002 totaled $449 million. Yet, the CIO
        only established two full time positions (team leader and one staff) as the primary
        resources to implement and execute an EPA CPIC process. The permanent positions
        were supplemented by an ad hoc team for the peer risk assessment and the review of
        proposals by the IIS. EPA should assign sufficient resources and expertise to address IT
        acquisition and development.

        Implementing I-TIPS Would Structure CPIC Process

        Implementing the Federally-sponsored I-TIPS software, an automated investment control
        and reporting system, would provide EPA with a valuable tool for monitoring and
        managing its IT investment portfolio. This tool already is being used by more than half of
        major Federal agencies. Implementing I-TIPS would help EPA select IT proposals,
        monitor the execution of funded IT projects, and electronically report IT investment
        submissions to OMB.

        Although EPA’s OEI appeared to seriously consider using I-TIPS, during the review
        cycle, management could not provide evidence to support that they planned to implement
        the software product in the near future. In March 1999, OEI conducted a study, Report
        on the Results of I-TIPS Process Analysis and Feasibility. Then, in 2001, EPA
        purchased a Service Level Agreement for I-TIPS. In response to the draft report, OEI
        indicated that it would use I-TIPS during the current budget cycle for generating reports
        to OMB. Agency-wide implementation of the product is tentatively scheduled for the
        fiscal 2005 budget cycle.



                                             15
                                                                           Report No. 2002-P-00017
                                                 EPA Management of Information Technology
                                                     Resources Under The Clinger-Cohen Act

Recommendations
       We recommend the Chief Information Officer:

       3-1.   Assign sufficient staff to develop a formal manual for the CPIC process in the
              EPA Directives system, and cross reference it to updated IT policies in Directive
              2100 on budget, management, procurement, and the System Development Life
              Cycle. At a minimum, the manual should include:

              (a)     a description of how IT investments are linked to the Enterprise
                      Architecture and IRM Strategic Plan,
              (b)     a minimum set of mandatory objective, risk-based criteria for use by both
                      the technical peer review and the IIS review for the Agency’s IT
                      investment portfolio.
              (c)     performance measures for monitoring and evaluating progress on IT
                      investments, and
              (d)     provisions for post-implementation review and evaluation of IT
                      investments.

       3-2.   Direct the IIS to not recommend funding IT projects identified by the Peer
              Review process as having significant weaknesses (i.e., do not meet the minimum
              established requirements) or duplicating existing projects, until critical deficiencies
              are resolved and the resolution steps adequately documented. In addition, IIS
              should clearly document how all risk weaknesses identified by the peer review
              are addressed and/or resolved prior to the Subcommittee making
              recommendations to fund projects to the Quality Information Council and CIO.

       3-3.   Direct the Information Investment Subcommittee to monitor the execution of IT
              projects during the fiscal year (at least quarterly) to identify emerging cost or
              schedule problems and initiate corrective actions.

       3-4.   Initiate a formal process with written evaluations of ongoing, completed, and
              terminated information technology projects to evaluate whether the projects or
              systems are successfully delivering promised benefits at an acceptable cost.

       3-5.   Complete implementation of an automated portfolio management system (e.g., I-
              TIPS) to provide timely, reliable information for investment decisions.

Agency Response
       The CIO’s response noted that OEI has issued formal criteria for the CPIC process each
       year since the requirement began. The CIO also stated that EPA used a highly
       structured approach for its annual data call, although that process continued to evolve



                                            16
                                                                            Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

        from year to year. Lastly, the CIO indicated that EPA expects to integrate updated
        OMB Circular A-11 requirements and the Agency’s Enterprise Architecture into the next
        IT investment review cycle.

OIG Evaluation
        Based on the CIO’s response and additional discussions with management, we amended
        the report and its recommendations. The primary area of confusion relates to our use of
        the terms ‘formally establish’ and ‘structured process.’ We agree that EPA annually
        issued formal guidance and criteria for the annual budget data call for the years under
        review. The use of an annual data call may be structured for that one year, but evolving
        criteria from year to year does not provide an adequate baseline for evaluating progress
        from year to year. Also, this was the first time the CPIC process used a risk-based
        process, and it was for the purpose of producing risk-ranked budget data. However, the
        Act intended a portfolio management process, not simply a risk-ranking of projects in the
        annual budget data call.

        We modified the report to clarify our intent for the phrases ‘formally establish’ and
        ‘structured process.’ Generally, our concern was the need for formal policies and
        procedures to establish a consistent management structure. Without this management
        structure for capital investments, EPA cannot establish a consistent baseline to evaluate
        and prioritize IT projects over several years. This minimum baseline information is critical
        for the CIO, IIS, Quality Information Council, and program managers when comparing
        IT investments, preparing IT investment proposals, accumulating project costs, monitoring
        the execution of IT investment projects, and evaluating completed projects.




                                             17
                                                                           Report No. 2002-P-00017
     EPA Management of Information Technology
         Resources Under The Clinger-Cohen Act




18
                          Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act


                                Chapter 4
        EPA Needs to Organize and Integrate
            Planning for IT Investments

       EPA’s ability to organize and integrate planning for IT investments depends on the
       quality and timing of several important factors. EPA must ensure that the Enterprise
       Architecture is fully integrated with the Agency’s Government Performance and Results
       Act goals and objectives, IRM Strategic Plan, and IT acquisition processes.
       Otherwise, EPA will continue to struggle with its ability to reinvent organization
       processes, integrate and manage data, and build a scalable and reliable network
       architecture. Although EPA has made some progress in developing an entity-wide
       Enterprise Architecture, the Agency needs to do more to organize and integrate
       planning for IT investments. For example, numerous essential components of the
       Enterprise Architecture have not been fully addressed or integrated. EPA’s fiscal 2003
       and prior IT investments were not driven by business priorities to result in organizational
       improvements. However, for the fiscal 2004 budget cycle, EPA’s Enterprise
       Architecture Team has provided guidance and worked closely with proposal preparers.

Background
       During 2001, EPA completed many actions towards establishing a baseline enterprise
       architecture for IT planning purposes. In April, EPA provided OMB with
       documentation of EPA’s first Enterprise Architecture, dated March 29, 2001. The
       document was not provided to EPA program offices until an Agency-wide conference
       in July 2001, about 2 months after the IT investment proposals for the fiscal 2003
       budget submission were submitted for the Agency CPIC review process. Furthermore,
       when the OIG met with EPA’s Office of Acquisition Management in October 2001,
       neither the IT Contracting Officer nor the Procurement Office were aware of the
       document.

       OMB reviewed the Agency’s fiscal 2001 IT Investment Portfolio and noted that they
       could not match the projects in the proposed Enterprise Architecture to the portfolio.
       In August 2001, OEI established a workgroup to identify and verify EPA’s business
       processes for the Enterprise Architecture baseline. The work group’s efforts occurred
       after completion of our field work, although we were informed that the group is
       updating the business processes and aligning them with OMB’s Business Reference
       Model.




                                             19
                                                                           Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

Executive Buy-in and Management Controls Required
         The Chief Information Officer Council recognizes the importance of executive buy-in and
         support to the IT investment process. The Council also states that an organization should
         create an architectural team to define and integrate the components. The enterprise
         architecture is an expansion of the IRM strategic plan that provides an enterprise view of
         information technology in the context of EPA’s business environment. The enterprise
         architecture defines the current and target (future) components. A transition plan
         sequences the evolution from current to target. As such, the enterprise architecture
         should be a document that is continuously modified and maintained to reflect the
         Agency’s current baseline and target business practices, organizational goals, visions,
         technology, and infrastructure. Figure 3 below depicts the major components of the
         Enterprise Architecture that must be addressed to accomplish EPA’s strategic goals and
         perform its business.




                                 Figure 3. Enterprise Architecture Framework

Various Components Essential to Quality of IT Planning
         EPA’s ability to organize and integrate planning for IT investments depends on the quality
         and timing of several important factors. Clearly defining the Enterprise Architecture is
         particularly important because it provides the conceptual framework for integrating the
         Agency’s information technology environment and core business processes to accomplish
         strategic goals. In the following subsections, we present issues that EPA management
         must address to ensure the integrity and effectiveness of its IT investment planning system.



                                              20
                                                                            Report No. 2002-P-00017
                                          EPA Management of Information Technology
                                              Resources Under The Clinger-Cohen Act

IRM Strategic Plan Goals Need to be Incorporated
into the Enterprise Architecture

EPA needs to incorporate the updated IRM Strategic Plan goals into a target enterprise
architecture. During our review, EPA was severely criticized by Congress, National
Academy for Public Administration, GAO, and environmental and industry groups for not
having such a plan. On July 29, 2002, the Agency completed its revised plan: EPA
Strategic Information Plan: A Framework For The Future.

EPA Has Yet to Fully Baseline its Business Processes

As of the end of field work, EPA had yet to fully baseline and validate the Agency’s
business processes essential for establishing a portfolio for future IT investments. EPA’s
draft Enterprise Architecture document included very high-level business processes;
however, these processes had yet to be validated by the responsible program offices.
We were informed that some of these business processes have been revised, but were
unable to substantiate whether the applicable program offices formally endorsed the work
group’s conclusions. EPA understands the importance of this activity, and plans to
perform a validation process this year.

Draft Enterprise Architecture Baseline Security Architecture
Needs to be Expanded

Although OEI’s draft baseline Security Architecture addresses many pertinent risks in
EPA’s Security program, it does not adequately address two important components:
facility physical security and personnel security requirements. The Enterprise Architecture
document states the Agency maintains a security infrastructure of approximately 1,600
servers for network support, application hosting, scientific computing, and graphics. OEI
centrally supports these servers. The document also indicates that the Agency owns an
additional 900 servers not supported by OEI personnel, but it does not adequately
address who supports these servers. OEI confirmed that these servers store sensitive
data. Therefore, the physical and personnel security requirements of these servers need
to be added into the baseline security architecture.

Key Data Needs to be Developed, Analyzed, and Controlled

As shown in Figure 3, the Enterprise Architecture conceptual framework should consist
of five components. As such, the Enterprise Architecture should define mission-critical
data needs to properly support the IT investment process. However, the draft Enterprise
Architecture plan we reviewed did not (1) specifically recognize (i.e., require)




                                     21
                                                                   Report No. 2002-P-00017
                                                 EPA Management of Information Technology
                                                     Resources Under The Clinger-Cohen Act

      individual Agency data standards and related metadata2 baseline information, and
      (2) adequately address other critical data used by stakeholders and programs business
      processes. EPA states it will address program-specific data needs across several
      dimensions.

      As of the end of field work, EPA had approved six Agency data standards, and recently
      it adopted a seventh standard. In addition, the Office of Water had implemented some
      program data standards. Although these efforts were underway, EPA’s intended
      infrastructure for managing and sharing environmental data did not adequately address
      how EPA’s program users and stakeholders were to use existing and future data
      registries to manage data. In fact, this issue has been a long-standing OIG concern, as
      noted in a prior report, Information Resources Management: Office of Water Data
      Integration Efforts (No. 8100177), dated June 22, 1998. We had recommended that
      EPA support its data standards program by using the Environmental Data Registry as a
      central repository for publishing and recording Agency data standards. The Enterprise
      Architecture Plan we reviewed did not incorporate this recommendation. However, EPA
      states that its current draft version of the Enterprise Architecture clearly describes the
      registry as a critical component of its target architecture.

      In its draft Enterprise Architecture, EPA recognizes that more detailed descriptions of
      critical data are necessary. Among other things, EPA will need to validate the information
      flow and relationships, as well as data descriptions and relationships, described in the
      initial Enterprise Architecture. Without this step, EPA cannot begin to establish a target
      architecture and define the required sequencing plan for migrating from the baseline to the
      target architecture.

      Complete Inventory of Systems Needed for Enterprise Architecture

      EPA needs to complete an update of its inventory of general and application information
      systems. This baseline of systems should identify current critical business processes,
      related systems (major and significant), and mission-critical data in those systems. At
      that point, the baseline can be used to identify IT investment projects that will meet the
      Agency’s current needs, eliminate redundant systems, and build an IT structure to
      accomplish EPA’s goals. However, we noted a number of inconsistent inventories.
      EPA’s March 2001 submission to OMB included a Year 2000 Systems Inventory that
      listed 70 major and significant application systems. However, the Enterprise
      Architecture, dated March 2001, only listed 46 major systems. In September 2001, the
      CIO reported to OMB in its On Implementation of the Government Information
      Security Reform Act report that it had 189 systems. In its response to the draft
      report, OEI stated the Enterprise Architecture will incorporate all systems into an
      Information Resources Registry System, which is scheduled to be operational by the

2
 Explanation of specific data fields, including information regarding its source, collection
method(s), and in what context the data can be used.

                                            22
                                                                          Report No. 2002-P-00017
                                          EPA Management of Information Technology
                                              Resources Under The Clinger-Cohen Act

end of fiscal 2002. OEI did not indicate how long it would take to fully populate the
Registry System. OEI also plans to link the Registry System and the Enterprise
Architecture.

In addition, the Enterprise Architecture document states that sufficient information on
Agency application interfaces is not available. The document states the CIO plans to
gather and document this information as part of the Agency’s ongoing application
inventory initiative, including documentation regarding major interfaces with applications
outside of the Agency. For example, this year, EPA intends to gather more information
on internal system interfaces and partner interfaces within the framework of its National
Environmental Information Exchange Network.

Enterprise Architecture Needs to Address Scalability
of Virtual Private Network

The draft Enterprise Architecture does not adequately address EPA’s existing and future
technology components for its next-generation wide area network. The Agency needs
to address “scalability” and Virtual Private Network (VPN) concepts to grow with the
Agency’s evolving needs. Scalability refers to the ability to expand a network to
accommodate future needs; a VPN is an electronic network, without physical limitations,
specifically designed to secure transmissions. With regard to scalability, the Enterprise
Architecture document did not explicitly identify minimum response times for key
transaction-based systems and for business application systems on the Agency’s wide
area network. Moreover, EPA’s July 2001 Network Requirements Study indicated that
bandwidth utilization for some circuits experienced bottlenecks for certain portions of the
network and responsiveness for newer systems ranged from very poor to good. Also,
whereas management has recognized the need for virtual private networks, they only
reference it in light of long-term needs. We believe the VPN concept is needed today to
help the Agency comply with existing Federal telecommuting statutory requirements and
to satisfy current business needs.

We agree with Agency officials that technical issues, such as transaction response
requirements and scalability, normally are addressed in a Technical Architecture. OEI’s
response to the draft report mentioned a “Technical Reference Model” and, we agree,
that may be a suitable planning document in which to address these issues. OEI agrees
with the importance of secure external communications and states they will take critical
steps to start implementing VPNs next year and, pending available resources, will make
full operations available on an enterprise basis in 2004.

Enterprise Architecture Should Address Middleware

EPA’s Enterprise Architecture should identify the middleware architecture needed to
address those client-server systems already implemented, as well as those envisioned
and planned to strengthen the overall usability of the distributed architecture.


                                     23
                                                                    Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

         Middleware architecture includes such things as message brokers, eXtensible Markup
         Language, and directory structures used to facilitate interconnection of systems and
         applications. EPA’s draft Enterprise Architecture overlooked this aspect of IT planning,
         but management may want to address these topics as part of the “Technical Reference
         Model” mentioned in OEI’s response to the draft report. To minimize the risk of
         incompatible communications, a standard middleware architecture could greatly benefit
         application developers with a single consistent interface for both inter- and intra-
         application communications.

Various Causes Contributed to Lack of Planning
         No Central Planning Organization or Appointed Authority

         EPA’s IT planning activities suffered from a lack of a central organization and authority.
         EPA’s IT planning is currently managed using a decentralized and fragmented structure
         involving numerous individuals and offices. Agency-level coordination was generally
         accomplished through project briefings to the Quality Information Council and its four
         subcommittees. With regard to the fiscal 2002 budget process, informal meeting minutes
         would support that the Council deferred formal management planning decisions in lieu of
         receiving briefings by numerous project managers and the Council’s subcommittees.

         Also, EPA needs to define the role and authority of its Chief Architect for IRM. The
         role of this Chief Architect is to oversee development and coordination of the Enterprise
         Architecture with other planning elements that should materially shape and drive the IT
         planning structure. The CIO named an individual to this role in February 2002 (via
         electronic mail), but there has been no formal definition of the position’s scope and
         responsibilities in policy, nor any official delegation of authority.

         Further, we identified several IT planning-related, Agency-wide documents, projects,
         and work groups that should be coordinated to ensure their individual visions and plans
         are aligned. Together they will enable EPA to optimally execute its program goals and
         deliver environmental and human health improvements.

         To EPA’s credit, management established a central Enterprise Architecture workgroup
         in August 2001. While EPA has planned activities to coordinate and develop the
         Enterprise Architecture, management must also establish a permanent central
         organization with dedicated resources and assigned responsibility to maintain this living
         document. Agency-wide Enterprise Architecture components need to be addressed and
         maintained for the following functional areas: the identification of EPA’s major and
         significant systems; defining the security architecture; validating the business processes
         with program offices; developing the Middleware architecture and defining baseline
         telecommunication requirements; defining Working Capital Fund capital investments; and
         approving individual IT project management plans for major projects or systems.



                                              24
                                                                            Report No. 2002-P-00017
                                                 EPA Management of Information Technology
                                                     Resources Under The Clinger-Cohen Act

       Finalizing Information Integrated Program Plan Needed

       In its fiscal 2003 budget submission, EPA identified the Information Integration Program
       as its only major architectural project for deriving and completing an enterprise
       architecture. As critical as the project is to EPA’s Enterprise Architecture development
       efforts, no final management work plan has been implemented for this project since the
       draft was issued in December 2000. Management is required to issue a final, approved
       work plan in accordance with Agency Directive 2100, and should do so to ensure the
       timely success of the individual program, as well as the overall quality of the Enterprise
       Architecture Plan and the Agency’s future technology investments.

       The Chief Architect provided information that indicates EPA’s program and regional
       offices will be asked to co-develop the Agency's baseline and target elements for the
       Enterprise Architecture. With OEI's leadership and facilitation, the program and
       regional offices will conduct their own architectural needs analysis, and realign their
       respective systems with EPA’s evolving target. During our fieldwork, we were unable
       to substantiate how this will be accomplished. In OEI’s response to the draft report,
       management assured us that participants have been informed of their roles and
       responsibilities. In addition, they stated the Chief Architect is developing explicit
       guidance to formalize roles and responsibilities for regional and program offices.
       Management also stated that the Enterprise Architecture was scheduled for completion
       by October 2002.

Recommendations
       As the number one priority, we recommend that the Chief Information Officer direct the
       Chief Technology Officer to:

       4-1.    Formally institutionalize:

               (a)     in policy the Enterprise Architecture program to plan, manage, monitor,
                       and control the development and maintenance of the Enterprise
                       Architecture plan.
               (b)     the Chief Architect position by clearly defining and documenting the
                       roles, responsibilities, and authority of the job in policy or through a
                       delegation.

       Next, we recommend the CIO target the following key actions to complete the
       Agency’s baseline and future plans for the Enterprise Architecture:

       4-2.    Establish a permanent organization under the leadership of the Deputy Chief
               Information Officer for Technology to update and maintain the Enterprise
               Architecture in accordance with the Agency IRM Strategic Plan and its
               Government Performance and Results Act requirements.


                                            25
                                                                          Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

        4-3.   Identify current major and significant general and application systems to establish
               an accurate inventory of such systems and integrate this information with both the
               Agency’s Enterprise Architecture application component and the IT CPIC
               Portfolio.

        4-4.   Complete the project to publish an updated Enterprise Architecture and
               document the project as required by Agency policy.

        4-5.   Finish implementing a robust Agency information repository and
               (o)     require the use of the data registry for Agency maintained data,
               (p)     map EPA’s data and information resources, and
               (q)     complete on-going efforts to adopt life-cycle data management
                       principles for the Enterprise Architecture data and systems components.

        The CIO should implement the following recommendations as the Enterprise
        Architecture is developed and updated:

        4-6.   Use a top management verification, validation, and approval process to ensure
               program business processes and goals are accurately reflected and incorporated
               into the Enterprise Architecture. Subsequently, formalize the process as a
               discipline for updating the Enterprise Architecture document.

        4-7.   In coordination with the Office of Acquisition Management, jointly develop an
               approval process that ensures the Enterprise Architecture concept is
               incorporated in future IT contract activities for large and significant IT projects.

        4-8.   As part of a Technical Reference Model or Technology Architecture, address
               technology components, such as interfaces, transaction response times, and
               baseline telecommunications requirements to support a scalable, reliable, and
               secure network infrastructure for the Enterprise Architecture.

Agency Response
        The CIO generally agreed with our recommendations, but believed many actions
        currently underway were not recognized in the report’s findings. OEI had made
        progress in addressing our concerns and, therefore, the CIO suggested that we revise
        specific findings or recommendations to reflect recent accomplishments.

OIG Evaluation
        We made changes to the report findings and recommendations based on the CIO’s
        response, acknowledging recently-completed actions and planned activities. We agree
        that EPA has taken significant first steps to address our report’s findings and
        recommendations on IT planning. However, many actions were initiated after we
        finished audit field work, and some actions are still in progress.

                                             26
                                                                             Report No. 2002-P-00017
                                        EPA Management of Information Technology
                                            Resources Under The Clinger-Cohen Act

We attempted to be as specific as possible in our recommendations to provide
appropriate direction and recognize current ongoing efforts. For example, we agreed
that some of the technical components can be addressed appropriately in a Technical
Reference Model or Technology Architecture, rather than the Enterprise Architecture,
and amended the recommendation accordingly. The CIO has established an ambitious
schedule to address this report’s recommendations, and it will require a significant
amount of dedicated resources to not only complete them, but to maintain the EPA’s
planning structure for IT capital investments.




                                   27
                                                                Report No. 2002-P-00017
     EPA Management of Information Technology
         Resources Under The Clinger-Cohen Act




28
                          Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act


                                Chapter 5
                 EPA Needs To Strengthen
             IT Project Management Controls

        For the six EPA IT major projects reviewed, we found significant project management
        control weaknesses, a lack of compliance with Agency system development policies,
        and inaccurate project status information reported on the Clinger-Cohen budget
        submission. EPA incorrectly reported an approved System Management Plan (SMP)
        was being followed for projects. Further, SMPs were either out of date or had never
        been formally approved and signed. We also found significant variability in EPA’s
        working capital fund expenditures, which adversely impacted the system development
        project’s planning and budgeting activities. Several key factors contributed to the lack
        of management controls over IT projects:

        • OEI had not updated IRM policies or established interim guidance to convey new
          requirements, and project managers did not practice existing policies;
        • managers were not using a phased, sequential system development process;
        • EPA had not adopted standard tools for reliably managing IT project information
          resources, schedules, products, and costs; and
        • until fiscal 2002, EPA had not provided a means for project managers to track
          project and contractor support costs.

        The CIO needs to establish controls to monitor project managers and ensure they use
        key management controls (e.g., SMPs), and maintain current cost-benefit analyses and
        project cost records. Otherwise, the CIO has little assurance that IT investment
        projects represent cost-effective solutions.

Primary System Guidance
        OMB Circular A-130, Management of Federal Information Resources
        Management, establishes requirements for:

        •   preparing and updating a cost-benefit analysis for each information system
            throughout its life cycle;
        •   conducting post implementation reviews of information systems development
            projects to validate benefits; and
        •   establishing an oversight mechanism to ensure major systems development projects
            proceed in a timely fashion toward agreed-upon milestones and deliver intended
            benefits.

        OMB Circular A-11, Preparing and Submitting Budget Estimates, required two
        reports for fiscal 2002 budget submissions:
                                             29
                                                                           Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

        •   Section 53. This report summarizes an agency’s IT portfolio by listing major and
            significant capital investments for IT system, infrastructure, and architecture
            projects.

        •   Section 300. This is a separate planning and justification report for each major
            capital investment with a useful life of 2 or more years. Agencies are expected to
            establish and measure baseline costs, establish a measurable project schedule, and
            ensure projects support performance goals.

        OMB Circular A-127, Financial Management Systems, Parts 6 and 7, address
        financial system requirements. EPA Directive 2100, Chapter 17, identifies an eight-
        stage life cycle methodology, and establishes specific thresholds for formal review and
        approval of an SMP for system development or enhancement projects.

Documents Incorrectly Reported
        In its fiscal 2002 and 2003 CPIC project submissions, EPA managers misrepresented
        the status of key management documents. We reviewed documentation for three of six
        selected projects. We could not audit two infrastructure projects because, despite
        repeated requests, EPA managers did not furnish adequate supporting documentation.
        The sixth, which was EPA’s current architecture project, Integrated Information Project,
        did not have a current, approved SMP. Following are examples of what we found:

        SMPs

        •   The SMP for AIRS-AQS (Aerometric Information Retrieval System - Air Quality
            System) had not been updated since originally prepared in 1996. Maintaining a
            current and formally approved SMP is important because it discloses significant
            changes to the system development project and ensures accountability.

        •   As of December 17, 2001, the SMP document for the RCRAInfo (currently
            defined as the Resource Conservation and Recovery Act Information Management
            System and Waste Information Needs/Informed) did not include the Assistant
            Administrator’s signature approving the project and key decisions, as required by
            EPA Directive 2100. Project management attributed the lack of signed hard copies
            to a reliance on electronic documents and e-mail to manage meeting minutes and
            decision notes.

        Cost-Benefit Analyses

        •   Project management stated that, given the modular nature of the RCRAInfo project,
            cost benefit analyses were performed for each major component rather than for the
            project as a whole. EPA’s fiscal 2003 investment submission for this project
            disclosed total life cycle costs of $70.5 million, an increase of $40.4 million over
            previously projected costs. Management attributed the increase to: estimated

                                             30
                                                                           Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

            regional and state costs, changes to working capital fund rates, and adding years to
            the system life cycle. An updated cost-benefits analysis would help determine the
            most cost-effective strategy for implementing the RCRAInfo investment.

        •   The cost-benefits analysis for SDWIS/STATE (Safe Drinking Water Information
            System/State Version Modernization Effort) had not been updated since 1992,
            despite many changes in design, functionality, and plans to migrate to a web-
            enabled application. The outdated analysis erroneously leads EPA management to
            believe that the original return on investment will still be achieved. An updated cost-
            benefit analysis should be completed as extra functionality is added to the system,
            such as the planned integration of SDWIS/STATE into the Agency’s Central Data
            Exchange initiative.

        Primary Architecture Project Lacks Plan

        Although EPA’s Information Integration Program is the heart of EPA’s Enterprise
        Architecture and planning investment strategy, EPA did not recognize the Program as a
        separate architectural project until the fiscal 2003 budget submission, provided
        September 2001. As such, no project plan had been finalized to define the vision,
        scope, or implementation and cost schedules for this architectural project. The project
        plan would help management ensure that the intended benefits of this complex endeavor
        do not outweigh the projected costs, as well as provide specified time frames for
        completing detailed tasks and products.

        Project Managers Not Adequately Monitoring Status

        EPA project managers were not adequately monitoring the execution of IT capital
        investment projects. EPA’s 300b IT investments reports showed that projects
        consistently did not meet cost estimates, scheduled milestones, and planned
        performance. We compared planned expenditures for 46 IT investment projects in
        fiscal 2001 against their corresponding actual costs, and found that 37 percent showed
        more than a 10 percent increase. Furthermore, the investment reports indicated that 78
        percent of these projects experienced milestone slippages greater than 10 percent. The
        data strongly indicates project managers need better standard management tools.

Many Factors Negatively Impact Management of IT Investments
        Numerous factors contributed to the inconsistency of management controls for IT
        investment projects. These concerns were voiced by many of the project managers
        interviewed.

        IT Project Managers Need Standard Tools

        For the period reviewed, EPA had not adopted standard project management tools to
        help managers plan, control, and evaluate IT investment projects and track project

                                             31
                                                                            Report No. 2002-P-00017
                                          EPA Management of Information Technology
                                              Resources Under The Clinger-Cohen Act

costs, schedules, and resources. SDWIS/STATE is an example of a project that could
have been managed better with the help of a project management tool. Standard project
management tools help promote a consistent and uniform approach to tracking and
managing all forms of project and contractor support costs. A standard tool helps to
reduce the communication gap between contractor support activities and what the
Agency reported for this IT investment.

IT Projects Not Using A Phased Sequential Project Life Cycle

The status of a project is often unclear because project managers do not use a
sequential, phased development process to clearly distinguish where one series of system
development life cycle activities ends and another series begins.

EPA Directive 2100, Chapter 17, requires that system development projects follow a
sequential, phased systems development life cycle called the “waterfall” method. This
method consists of eight sequential stages. Any planned new functionality should be
considered a new project, and a new project also should be established when estimated
costs exceed stipulated dollar thresholds.

Industry recognizes at least three other models for systems development that are
sequentially-phased from a project perspective. These approaches are generally
referred to as: (a) spiral, (b) prototype, and (c) rapid application development models.
Spiral modeling works as a repeating waterfall approach, with a risk analysis at every
stage to determine whether cost overruns, schedule delays, or changing requirements will
impact the benefits of proceeding. Prototyping uses existing software and lets a group of
users define the system requirements for an organization. Rapid application development
is based on reusing and modifying software components until they perform as desired.

The projects reviewed did not demonstrate any of these acceptable “phased” software
development approaches. Rather, we found that EPA generally used an evolutionary
approach in which management continuously added requirements to the overall system
development project. For example, the RCRAInfo project was simultaneously in more
than one stage of the system development life cycle, and management could not
distinguish the cumulative costs associated with one set of activities versus another. The
project is very broad and encompasses five program area requirements. In 1999,
contractors completed the first system development life cycle stage (i.e., the
Requirements Analysis) for three of the five areas, while the two most critical functional
requirements remained in the first stage. Despite several years of effort, management
was still defining RCRAInfo requirements. Business needs can change based on
technology advances, so best practices suggest that requirements be defined in less than
2 years. We believe management should have split the program area requirements into
two or more distinct projects, so development efforts could progress in a timely fashion
from one stage to the next, and managers could easily track associated costs and
schedules.


                                     32
                                                                   Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act

         Evolving Nature of EPA’s Exchange Network

         The evolving nature of EPA’s architecture project deterred management from finalizing
         its formal project plan to ensure the cost-effective and timely execution of the Exchange
         Network. What is now referred to as the Information Integration Project represents the
         third iteration of the project, and the objectives and intended outcomes have undergone
         several revisions. Also, the number of infrastructure projects (e.g., registries) affecting
         the Information Integration Project have been evolving, and management must clarify the
         role these supporting projects play.

Minimal Assurance that IT Investments
are Cost-Effective and Controlled
         The absence of key decision documents and senior management approval (e.g., cost
         benefit documents, management decision papers, system management plans) increase
         the risk that funded IT projects will evolve in an unstructured, untimely, and costly
         manner. Furthermore, expanding and/or changing original project objectives to
         incorporate evolving business functions results in confusion, complications for proper
         cost accumulation, and slipped project development time lines and even system
         development projects that never come to closure. In addition, if projects are too broad
         in scope to progress through the life cycle in a timely manner, then what originally was
         thought to be a cost-effective solution may become a bad return on investment. Further,
         the lack of project management tools inhibits project managers’ ability to provide reliable
         data on a project’s status, and contributes to unjustified delays and unsupported cost
         overruns on IT projects. Chapter 2 contains additional effects relating to EPA’s
         inadequate oversight processes.

Recommendations
         We recommend the Chief Information Officer:

         5-1.    Monitor IT investments to ensure that SMPs are prepared in accordance with
                 Agency requirements, and that they appropriately link the Enterprise
                 Architecture and other planning documents to the Clinger-Cohen Act submission
                 documents.

         5-2.    As part of a monitoring process, re-evaluate funding for IT investments at least
                 quarterly, to determine if they have exceeded budgeted costs or project
                 milestone schedules by more than 10 percent, and ensure that written
                 justifications sufficiently support continuing the project.




                                              33
                                                                             Report No. 2002-P-00017
                                                EPA Management of Information Technology
                                                    Resources Under The Clinger-Cohen Act

       5-3.   Prescribe that standard tools, such as I-TIPS and project cost accounting, be
              used for managing projects for software development changes to IT systems and
              project management. The selected tools should be approved by the Chief
              Financial Officer as being compatible with the Agency’s cost accounting and
              financial systems.

       We recommend the Air Quality System Project Manager:

       5-4.   Update the SMP for the Air Quality System project and obtain the signature of
              approval of the Assistant Administrator for Air and Radiation at the conclusion
              of the analysis stage for major and significant enhancements adding new
              functionality.

       We recommend the RCRA Information Project Manager:

       5-5.   Update the Project Management Plan for the RCRAInfo project to make it
              equivalent to an SMP, for planned system design changes and enhancements
              adding functionality. In addition, the SMP should be formally approved by the
              Assistant Administrator for Solid Waste and Emergency Response to authorize
              the IT investment and to ensure a system of accountability.

       We recommend the SDWIS/STATE Project Manager:

       5-6.   Establish an SMP for the SDWIS/STATE project and obtain the signature of
              approval from the Assistant Administrator for Water at the conclusion of the
              analysis stage and for major and significant enhancements adding functionality.

       We recommend the Project Managers for the Air Quality System, RCRAInfo, and
       SDWIS/STATE:

       5-7.   Manage project development efforts in accordance with the SMP, as updated,
              throughout the life cycle of the system, and retain the SMP for reference and
              review by the CIO or the CIO’s designated review official.

Agency Response
       We received comments from several Agency officials in response to this chapter’s
       findings and recommendations. The CIO agreed to monitor IT investments and
       expected to also establish a preselect phase. However, the CIO stated we had not
       recognized that the current review process required monitoring a project as part of an
       annual review. Further, the CIO did not agree that one set of project management tools
       would be cost effective or meet all projects needs. The Assistant Administrator for
       Solid Waste and Emergency Response and the Director of the Office of Air and
       Radiation’s Information Transfer and Program Integration Division both disagreed with
       our conclusion that project management controls were inadequate.

                                           34
                                                                         Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act


OIG Evaluation
        We made changes to this chapter based on the Agency’s responses, as well as further
        discussion with management officials. We had used a judgmental sample of the six
        different kinds of major IT investment projects, and the sample accounted for over half
        of the fiscal 2002 major IT projects’ budgeted funding. We had completed a limited
        survey, requested supporting documents, and interviewed key project managers.
        However, we were unable to complete the survey and had to limit our scope of review
        because three major system projects did not provide requested information. For the
        three major system projects completing the survey, we did not (1) review all the
        individual project’s management controls, or (2) determine whether the individual
        project accomplished the objectives identified in the budget submission.

        Our review concentrated on project management controls and documentation
        requirements in OMB Circulars and existing EPA System Development Life Cycle
        policy. We were able to document inaccurate and/or unsupported information being
        incorrectly reported by the three major IT system projects in the fiscal 2002 budget.
        For example, the projects (1) did not adequately address OMB requirements by
        consistently accumulating costs from year to year; (2) could not support total costs from
        inception of the project; and (3) could not provide current cost-benefit studies
        addressing costs, needs, and expected benefits. We also found that the projects could
        not document compliance with existing Agency and Federal system requirements, such
        as the development and top management approval of a current cost-benefit analysis.

        Each project was using a different set of project management procedures for the day-to-
        day execution of the project. We did not evaluate these local project controls. Still, we
        believe that if EPA was monitoring the projects’ execution (at least quarterly) and
        evaluating completed IT projects, individual project managers would address these
        critical management controls. Furthermore, if program managers are compelled to
        report accurate data for critical management controls (e.g., emerging cost and schedule
        overruns), then the CPIC peer review process can more accurately assess the risk of
        successful completion for susceptible IT projects.




                                             35
                                                                          Report No. 2002-P-00017
     EPA Management of Information Technology
         Resources Under The Clinger-Cohen Act




36
                          Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act


                                Chapter 6
       Project Cost Accounting System Vital for
        Planning and Managing IT Investments

        Although EPA implemented an IT project cost accounting methodology in fiscal 2002,
        EPA managers previously relied on an inconsistent variety of informal cost accumulation
        processes and records to oversee and measure progress on individual IT system
        development or enhancement projects. Even now, the accuracy of captured IT costs
        depends largely on the ability of non-technical staff to consistently and accurately
        distinguish how IT costs fit into system life-cycle categories, and to appropriately code
        funding documents. Accuracy also depends on contractors adequately identifying
        specific software development costs.

Cost Accounting a Federal Requirement
        Cost accounting data is required by Federal laws, standards, and Agency policies. The
        Clinger-Cohen Act notes that before an IT investment is made, it is to be evaluated using
        a risk-adjusted return on investment as well as other specific quantitative and qualitative
        criteria. OMB Circular A-11 defines the life cycle phases to be used for reporting IT
        costs and budgets. EPA Directive 2100 requires system managers to prepare a needs
        assessment and SMP before a new system development or enhancement project can be
        approved. Statement of Federal Financial Accounting Standard No. 10 requires
        agencies to capitalize the full costs of internal use software.

Managers Did Not Have Necessary Project Information
        Prior to the start of fiscal 2002, EPA did not have a standardized project cost
        accounting methodology for managers to use in overseeing IT projects and systems
        covered under the IT CPIC process. In the projects reviewed, we found that managers
        relied on an inconsistent variety of informal cost accumulation processes and records to
        identify expenses, assess changes to baseline costs and schedules, and measure progress
        of individual IT development or enhancement projects. In addition, managers needed a
        standard project management system to allow them to establish reasonable baselines for
        projects, including tracking and managing project contractors’ costs; accumulating labor,
        working capital fund, and project hardware purchase costs; and controlling changes to
        system milestones and documentation.

        Effectiveness of Interim Accounting Practices Untested

        EPA’s Office of the Comptroller issued interim policies and procedures on accounting for
        IT activities through Policy Announcement No. 01-10, New Information Technology
        Accounting Requirements. Effective October 1, 2001, this announcement established a
                                             37
                                                                           Report No. 2002-P-00017
                                                     EPA Management of Information Technology
                                                         Resources Under The Clinger-Cohen Act

         standard agency-wide method of tracking IT costs using the site/project field in the
         existing accounting code structure. The announcement also defined three life cycle
         categories, as well as IT activities, goods and services, and established processes for
         capitalizing the full cost of internal use software.

         The majority of EPA’s IT project costs are based on contractor and grant costs.
         Whether the captured IT costs are accurate will depend largely on the ability of IT
         Project Officers, Delivery Order Project Officers, and Contracting Officer’s Technical
         Representatives to accurately assemble supporting cost documents, accumulate
         appropriate project life cycle costs, and input the project costs into the Agency’s
         accounting system by life cycle phases. Especially in the early implementation stages,
         individuals may not have enough knowledge of the IT projects they manage to
         consistently and accurately distinguish between the significant and major cost categories
         (i.e., the preliminary design, development, and maintenance phases). Our concern is
         compounded by the fact that the three system life cycle categories set forth in the Policy
         Announcement are inconsistent with the phases described in EPA Directive 2100. OEI
         and the Office of Chief Financial Officer are participating in an agency-wide workgroup
         to revise and identify acceptable systems development approaches, resolve current
         differences in life cycle phases, and develop common definitions across various
         management programs (e.g., accounting, systems development, Enterprise Architecture,
         and CPIC process).

         Until the new practice is audited, we cannot be certain that actual Agency practices will
         conform with the Policy Announcement, or that successful implementation of the policy
         will result in effective tracking of IT costs for capitalizing the full costs of internal use
         software.

Ability to Assess and Manage IT Projects Impaired
         The absence of a project cost accounting system impaired IT managers’ ability to
         efficiently and reliably estimate, manage, and report IT project costs. For example,
         system managers could not perform reliable cost-benefit analyses of technical alternatives,
         which is useful for developing a sound system/project management plan. Likewise, IT
         managers could not maximize the value of or perform risk-adjusted Return on Investment
         analyses. Furthermore, neither the CIO nor Chief Financial Officer could reliably verify
         or validate the accuracy or completeness of IT expenses reported by program offices and
         regions. Therefore, IT investment amounts previously reported via OMB Exhibits 53 and
         300b were at significant risk of being incomplete, inaccurate, or inconsistent with prior
         year disclosures.

EPA Asserts System Complies with Standards
         Despite previous OIG report recommendations to implement a managerial cost
         accounting system, the Office of the Chief Financial Officer had maintained that EPA’s
         financial management system met Federal accounting standards. While Statement of

                                                38
                                                                               Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act

       Federal Financial Accounting Standard No. 10 prompted the Agency to create a
       methodology to capture IT costs for “internal use” software capitalization purposes,
       EPA’s current interim cost accounting and related management systems still cannot
       provide managers with enough basic cost information to accomplish objectives associated
       with planning, decision making, control, and reporting for their respective IRM program
       activities. However, on September 24, 2002, the Office of Chief Financial Officer
       submitted an action plan for Expanding Cost Information at EPA. We will continue to
       monitor the Agency’s achievements as they work with program offices to promote the
       use of cost information in managing for results.

Recommendations
       Implementing appropriate definitions and controls will require the combined efforts of
       several EPA program offices. We recommend the Chief Information Officer, Chief
       Financial Officer, and Director for Acquisition Management work together to:

       6-1.    Institutionalize consistent definitions of systems life cycle stages and IT costs in
               Agency policy to be used for contracting, accounting, IT systems, project
               management, and the capital planning investment control process.

       We recommend the CIO and Chief Financial Officer work together to:

       6-2.    Institutionalize in Agency policy consistent systems life cycle and IT costs
               definitions for revising EPA Directive 2100, and the interim IT activities policy
               guidance.

       We recommend the Chief Financial Officer lead an effort to:

       6-3.    Complete a needs and feasibility assessment of alternatives to determine what
               types of project cost information and supporting documentation are needed for
               the capital planning investment control process and managing IT projects.

Agency Response
       Responding for EPA’s Chief Financial Officer, the Comptroller agreed in general with our
       recommendations and pointed out that Policy Announcement 01-10, effective October 1,
       2001, implemented IT project cost accounting, which is a new way of conducting
       business for EPA. Both the Comptroller and the CIO did not agree with a proposed
       recommendation to amend all current system development contracts to identify system
       development costs by Agency system development life cycle phase. The Comptroller
       stated that the policy already requires Project Officers, Delivery Order Project Officers,
       and Contracting Officer’s Technical Representatives to code project costs for projects
       and systems under their control.



                                             39
                                                                             Report No. 2002-P-00017
                                                 EPA Management of Information Technology
                                                     Resources Under The Clinger-Cohen Act


OIG Evaluation
        Despite Agency assurances, we still have concerns about whether accurate cost
        information will be available to permit Project Officers, Delivery Order Project Officers,
        and Contracting Officer’s Technical Representatives to accurately code costs for projects
        and systems. As the Comptroller pointed out, this is a new process that only was
        established at the end of our field work. As a result, no information was available to
        complete a detailed evaluation of operational cost accumulation controls. We have
        dropped our prior recommendation to amend requirements for existing software
        development contracts until the fiscal 2002 financial statement audit evaluates the
        adequacy of this new cost accounting process for accumulating software development
        costs by project.




                                            40
                                                                          Report No. 2002-P-00017
                                         EPA Management of Information Technology
                                             Resources Under The Clinger-Cohen Act


                      Appendix 1
   Details on Scope and Methodology

We performed our audit in accordance with Government Auditing Standards, as issued
by the Comptroller General of the United States. The audit included tests of the program
records and other necessary auditing procedures. We began preliminary research on
January 16, 2001, and an in-depth review on August 21, 2001. We issued a draft report
in April 26, 2002. We conducted this audit at EPA Headquarters in Washington, DC.

At the time of our audit, our scope was limited because the Agency could not provide a
final work plan for the Information Integration Program project, also known as the
National Environmental Information Exchange Network project. Also, we could not
substantiate how the Working Capital Fund process integrates with the IT investment
process (see Scope Limitations section below).

To accomplish the audit objectives, we attended hearings on July 11, 2001, on Senate
Bill 803, and documented Testimony before the Senate Governmental Affairs Committee.
This bill was to address the need for a Federal CIO to manage IT investments under the
Clinger-Cohen Act. We compiled a list of public laws related to IT acquisition and
management that affected implementation of the Clinger-Cohen Act. This included the
Electronic Government Act, the Paperwork Reduction Act, and the Federal Acquisition
Regulation. We reviewed Congressional Reports and noted the problems Federal
agencies were experiencing implementing the Clinger-Cohen Act. We reviewed OMB
Circulars pertaining to implementation of the Act, and feedback provided by OMB to
EPA concerning Agency IT budget submissions.

We reviewed the Agency’s Enterprise Architecture dated March 29, 2001, and
summarized the Federal requirements for developing Enterprise Architecture documents.
We researched and reviewed documents issued by the Federal CIO Council relating to
the implementation of the Clinger-Cohen Act. EPA has actively participated in the
Council’s survey and study projects.

We reviewed EPA IRM policies related to implementation of the Clinger-Cohen Act We
met with Agency personnel knowledgeable of and responsible for writing IRM policies.
At the time of our review, EPA had established an Agency work group to address the
needed revision of System Development Life Cycle polices to support the requirements
of the Clinger-Cohen Act.

We reviewed Agency delegations dealing with implementation of the Clinger-Cohen Act
to ascertain whether appropriate authority had been delegated to the CIO by the




                                    41
                                                                 Report No. 2002-P-00017
                                                   EPA Management of Information Technology
                                                       Resources Under The Clinger-Cohen Act
         Administrator, and whether the CIO had delegated appropriate authority to program
         officials. We consulted with the OIG Counsel on this matter.

         To gather information on the implementation of the Clinger-Cohen Act in other Federal
         agencies and determine potential benefits that could be implemented by EPA, we
         interviewed personnel at three other agencies: Treasury, Housing and Urban
         Development, and Agriculture. For example, I-TIPS was a tool used by management at
         these agencies.

         We interviewed personnel responsible for implementing and managing EPA’s CPIC
         process, including the OEI Director; and personnel in the Office of Technology
         Operations and Planning and its Information Technology Policy and Planning Division.
         Division personnel interviewed included the Chief of the IT Strategic Planning Branch and
         CPIC Team Leader. We also attended various OEI meetings related to the CPIC
         process.

         We reviewed EPA’s IT budget submissions for fiscal years 2002 and 2003, including
         various budget proposals. Our review included a comparison of the proposals for the 2
         years to determine any proposed changes, the differences in budgeted and actual costs,
         and the cost variances. We also noted whether the proposal indicated a Cost Benefit
         Analysis and a Security Plan had been completed.

         We examined various documents provided by OEI, including budget call letters,
         instructions for preparers, the organization of the peer review, instructional material for
         reviewers, proposal evaluation criteria, peer review scoring, ranking and comments,
         notes, agendas, and actions of the Investment Subcommittee. We reviewed the agenda,
         notes, and actions of the Quality Information Council.

         For three IT investment projects, we reviewed the adequacy of information and
         documentation in support of their Clinger-Cohen Act submission documents for fiscal
         2002. This included an evaluation of the related project management controls and a
         comparison of the information provided for fiscal 2003. We used control questionnaires
         and follow-up interviews with IT project managers to ascertain information about project
         management practices, as well as Agency infrastructure and architecture projects.

Scope Limitations
         We could not substantiate how internal controls for EPA’s Working Capital Fund
         process integrate with both the IT investment process and the Enterprise Architecture,
         despite repeated efforts to obtain relevant policy or procedural information from OEI
         officials. The Working Capital Fund is used to fund various aspects of IT projects. We
         were advised that responsibility for the Fund recently shifted from OEI to the Office of
         the Chief Financial Officer. The Working Capital Fund concept is described in the



                                              42
                                                                             Report No. 2002-P-00017
                                                  EPA Management of Information Technology
                                                      Resources Under The Clinger-Cohen Act
         narrative for the Agency’s IT Architecture Roadmap, but the Roadmap does not
         elaborate on the Fund’s relationship to the Agency’s IT investment process.

         We attempted to audit two infrastructure project proposals: the National Centralized
         Computing and Information Processing Initiative and the proposal for the Scalable
         Computing and Information Infrastructure. The Agency could not provide any support
         for the proposals, including support for why $13 million in work included in initial
         proposals was no longer in the total costs of a subsequent proposal. Consequently, we
         could not audit what happened with the $13 million. Following our inquiries, the Scalable
         Computing and Information Infrastructure proposal was withdrawn from the investment
         review process and included as part of the National Centralized Computing proposal.
         Other projects also showed significant variability in Working Capital Fund expenditures,
         and we could not verify the nature of these variabilities.

Congressional Concern
         One of the reasons for our conducting this review was the concern expressed by
         Congress in a report from the U.S. Senate’s Governmental Affairs Committee,
         Investigative Report of Senator Fred Thompson on Federal Agency Compliance
         with the Clinger-Cohen Act, dated October 20, 2000. The report indicated that
         Federal agencies had not taken adequate actions to implement the Act, and noted that
         EPA did not produce evidence of any specific mission-related review of assessments
         based on programmatic or operational goals. EPA acknowledged shortcomings in its IT
         investment proposals, such as milestones being too general, projects being planned and
         managed in a stovepipe fashion, priorities not being established agency-wide, and the
         IRM strategic plan not being updated since the implementation of the Government
         Performance and Results Act. Further, when the Committee asked for a status report on
         EPA’s top 10 IT investment projects, EPA could not provide any information on the
         status of 4 of those 10 projects. The Committee made numerous recommendations to
         executive departments (including EPA) for making improvements.

Prior Audit Coverage
         In OIG Report No. 2001-P-00013, Water Enforcement: State Enforcement of
         Clean Water Act Dischargers Can Be More Effective, dated August 14, 2001, we
         reported that although the modernized Permit Compliance System was estimated to cost
         more than $10 million in life cycle costs, the required system charter and system
         management plan decision papers had not been prepared or approved by appropriate
         levels of management.

         In OIG Report No. 001000239, Financial Management: EPA’s Fiscal 1998 Working
         Capital Fund Financial Statements, dated March 29, 2000, we found internal control
         weaknesses that would impact the overall management of Working Capital Fund
         operations, and resulted in managers not having accurate or timely financial information


                                             43
                                                                           Report No. 2002-P-00017
                                           EPA Management of Information Technology
                                               Resources Under The Clinger-Cohen Act
on the Fund’s operations. This Fund provides EPA with computer and
telecommunication services on a cost-reimbursable basis.

In OIG Report No. E1NMF3-15-0072-5100240, Management of Application
Software Maintenance at EPA, dated March 31, 1995, we noted that while EPA was
creating the Working Capital Fund to more cost effectively administer services, it was still
questionable whether EPA could separate application software maintenance activity from
operations activity. EPA did not develop, review, and update software maintenance
costs by individual systems throughout their life cycles, which would prevent informed
budget decisions from being made.

In OIG Report No. E1SKG3-15-0098-4400038, Special Review of EPA’s
Information Systems Program, dated March 24, 1994, we noted that management did
not treat information as a strategic resource nor IRM as a core function and valuable tool.
EPA did not have an information data architecture, data standards, or administrative
structure to facilitate data sharing Agency-wide, and data quality problems existed.

Also, a National Academy of Public Administration report, Transforming
Environmental Protection for the 21st Century, dated November 2000, noted the
nation needs authoritative information about environmental conditions, and discussed
various steps being taken by EPA to do so. The report also emphasized that OEI had
not begun to draft a strategic plan to guide its activities, and had no direct authority over
the budget or staff that support EPA’s systems.




                                      44
                                                                      Report No. 2002-P-00017
                                                           EPA Management of Information Technology
                                                               Resources Under The Clinger-Cohen Act


                                       Appendix 2
                 Office of Environmental Information’s
                    Response to Draft Audit Report


                                                July 2, 2002

MEMORANDUM

SUBJECT:        Response to the Draft Report: EPA’s Management of Information Technology
                Resources Under the Clinger-Cohen Act, Audit Number 2001-0591

FROM:           Kimberly T. Nelson             /s/ Rick Otis for
                Assistant Administrator
                 and Chief Information Officer

TO:             Nikki Tinsley
                Inspector General

         This memorandum provides a response to the Office of Inspector General (OIG) findings outlined
in the Draft Report: EPA’s Management of Information Technology Resources Under the Clinger-
Cohen Act, Audit Number 2001-0591, dated April 26, 2002. Overall, the Office of Environmental
Information agrees with your emphasis on the critical importance of an effective IT resource investment
management program that 1) delivers real benefits to the Agency’s mission and 2) properly manages the
risks across our enterprise portfolio. It is my intent to aggressively address the key issues raised in the
report and I appreciate the work of your staff in providing us with this critical input to our planning and
operation of the Clinger Cohen CIO program. We will provide a complete action plan for improvements
upon receipt of the final report.

         There are some findings and recommendations in the draft report that my staff finds are not totally
accurate in their characterization of the past accomplishments, current status and strategic directions of
our program. We previously provided comments correcting some items which provided the basis for this
draft report, but the report does not reflect any changes for those issues. We have also made much
progress as an Agency during and following the audit. I would appreciate your review of our attached
comments. Please adjust the final version of the report to incorporate changes to the introduction,
findings and recommendations based on this information to ensure the final report provides the most
accurate view of the program and where the Agency should focus attention and resources to help it
improve in the future.




                                                      45
                                                                                    Report No. 2002-P-00017
                                                         EPA Management of Information Technology
                                                             Resources Under The Clinger-Cohen Act


        If you have any questions regarding this response please have your staff contact Mark Day,
Director of the Office of Technology, Operations and Planning at (202)566-0300.

Attachments

cc:    Mark Day, Director, Office of Technology Operations and Planning
       Debra Stouffer, Chief Technology Officer
       Kathy Petruccelli, Director, Office of Planning, Resources and Outreach
       Mike Flynn, Deputy Director, Office of Information Analysis and Access
       Brion Cook, Director, IT Policy and Planning Division
       Rick Martin, Director, National Technology Services Division
       Kevin Phelps, Associate Director, IT Policy and Planning Division
       Barbara A. Chancey, Chief, IT Strategic Planning Branch
       Chuck Cavanaugh, Program Lead for Investment Management
       John Sullivan, Chief Architect
       John Moses, Office of Information Collection
       Joe Dillon, Comptroller
       Juliette McNeil, Director, Financial Management Division
       John Gherardini, OAM
       Tom McEntegart, OAM
       Ed Lillis, OA
       Edward Cottrill, OW
       Tony Jover, OSWER
       Michael Mundel, OECA
       Jeffrey Worthington, OEI Audit Coordinator
       Brigid Rapp, OCFO Audit Coordinator
       Christa Eckel, OAM Audit Coordinator
       Greg Marion, OECA Audit Coordinator
       Judy Hecht, OW Audit Coordinator
       Johnsie Webster, OSWER Audit Coordinator
       Patricia H. Hill, OIG
       James Rothwell, OIG




                                                    46
                                                                                 Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act


 Draft Report: EPA’s Management of Information Technology Resources Under
                the Clinger-Cohen Act, Audit Number 2001-0591
Executive Summary
While we agree with the overall goal of the report, in many cases findings do not adequately reflect status and
accomplishments, so recommendations are not as helpful as they might be. We request adjustments to findings and
recommendations to focus attention more effectively on where additional effort and resources would benefit the Agency.

The following comments address statements in the Executive Summary “Results in Brief” which contains content outlined
from each chapter. Additional specific comments on findings and recommendations are identified separately in relation to
the respective chapters.

“Since established in 1998, EPA’s CIO has not taken adequate actions to implement and institutionalize the Agency-wide
authority and responsibilities for IT capital investments”

         EPA CIO’s have made major advancements in ensuring Agency-wide compliance with Clinger-Cohen
         responsibilities. EPA established the Quality Information Council (QIC), chaired by the CIO and comprised of
         Agency senior resource management officials. The QIC formally approves IT investment decisions, and has done
         so since Clinger-Cohen has been in place. Under CIO’s leadership, EPA senior resource managers have engaged
         in substantive investment reviews and direction. Their joint efforts have lead to restructuring of portfolio
         components, as well as substantive change/improvement of specific proposals.

“Several key factors continue to inhibit the realization of a successful program…”

         OEI has made significant advances on each of the factors specified. Specifically the CIO has taken steps to:
               C   establish a substantive range of new policies, procedures, and guidance on priority areas (security,
                   investment) and is in the process of moving forward on a new comprehensive policy framework;
               C   promulgate a new information strategic plan reflecting the Clinger-Cohen framework (in CIO review);
               C   officially establish a chief architect and elevate the Agency profile for enterprise architecture
                   development;
               C   hire a Chief Technology Officer to champion Clinger-Cohen compliance within EPA
               C   employed risk-based assessments for capital IT projects reflecting the evolving nature of OMB
                   guidance under Clinger-Cohen;
               C   establish new IT cost-tracking structures and requirements, and begin integrating investment and cost-
                   tracking.

“CIO had minimal assurance that IT investments reported to OMB would maximize their value”

         CIO recommendations for IT investments reflected senior Agency decisions on strategic program direction and
         value, based on then applicable Agency needs and available OMB guidance. Further, OEI continues to strengthen
         the investment review process to maximize value, including regular investment reviews of all OEI investments to
         review cost, schedule, and performance.




                                                          47
                                                                                            Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act



       Executive Summary
       Recommendations                                               OEI/OTOP Response

Revise outdated policies to remove       Suggest restating to acknowledge OEI process underway since Q1/02 to:
unauthorized IT business practices and             1. Identify, from a best practices perspective, what EPA’s IT policy
add new requirements.                             collection should be (recommendations to be forwarded for CIO review
                                                  in August, 2002);

                                                  2. Catalog EPA’s current IT policy collection (completion in August,
                                                 2002);

                                                  3. Identify the gaps between the “should be” and “current” states i.e.,
                                                 those IT policies needing to be created, updated, or canceled
                                                 (September 2002);

                                                  4. Develop a multi-year plan for how to address the gaps and bring
                                                 EPA’s IT policy collection to the “should be” state referencing
                                                 Enterprise Architecture, CPIC, and IT acquisition processes (November,
                                                 2002).
Finalize the IRM Strategic Plan.         Agreed and underway. A “Strategic Information Plan” document is in CIO
                                         review. The goals and direction put forth in this document are being
                                         incorporated as drivers in the architecture development.
Formally establish a Chief Architect     Please correct. On February 22, 2002, the CIO established the Enterprise
position with sufficient authority.      Architecture Program and named John Sullivan as Chief Architect for EPA.
Implement an automated project           Please restate: “Continue efforts to implement I-TIPS”. OEI is implementing I-
management system (I-TIPS).              TIPS successfully and will be using it to generate OMB reports this September
                                         for budget year 2004. EPA completed a security vulnerability assessment and
                                         developed risk mitigation plans prior to production as required by OMB, and is
                                         now moving forward agressively.
Implement monitoring and evaluation      Please provide greater specificity. EPA senior management and the CIO do
processes for IT investments.            monitor and evaluate IT investments, reviewing all OEI investments for cost,
                                         schedule, and risk. Further, the CIO is taking steps to integrate investment,
                                         enterprise architecture, system life-cycle and fiduciary management processes in
                                         partnership with OCFO. A general statement expressing support for these efforts
                                         would be useful.
Postpone funding for IT projects that    The CIO and the QIC review investments prior to funding. Funding has never
have been identified as “materially      been recommended for an investment determined to be “materially deficient.”
deficient”




                                                          48
                                                                                        Report No. 2002-P-00017
                                                                EPA Management of Information Technology
                                                                    Resources Under The Clinger-Cohen Act

                        Chapter 2 - CIO Needs to Fully Implement Clinger-Cohen Act Requirements.
                Findings                                                        Response
2.1 - Five years after implementation of    EPA through actions by the Administrator and the CIO has taken steps to
the Act, EPA’s CIO still had not            implement critical Clinger-Cohen functions, and to direct IT resources in a
established an adequate structure with      manner that will deliver increasing value to our program mission. CIO leadership
the policies and guidance needed to         has been highly visible in enterprise architecture, investment management,
sufficiently implement the Act.             critical policy, and workforce development. Please amend this finding to
                                            highlight the specific areas where the CIO and Agency leadership should direct
                                            additional attention and resources.
2.2 - Overall, EPA’s program managers       Inaccurate. There is evidence that program offices do take the CCA seriously.
are treating the Clinger-Cohen Act          Agency managers at multiple levels have actively participated in investment
requirements as little more than a paper    reviews. Management attention is reflected in: consolidation and elimination of
exercise to satisfy the annual OMB          duplicate projects; the number of program offices seeking OEI’s consultation on
budget call.                                preparing proposals; more refined reporting of budget numbers; linking IT
                                            investments to GPRA goals and agency priorities. It would be helpful, if you
                                            could expand the recommendation to identify the specific manner in which
                                            program managers should be involved beyond the roles that they currently fulfill
                                            (proposal preparation, approval, participation in Agency-wide portfolio
                                            development).
2.3 - Numerous examples demonstrated        For the past five years, criteria has been based on the OMB’s eight Raines Rules,
the use of inconsistent criteria and a      plus additional Agency policy and programmatic criteria that was approved by
general lack of objective, quantitative     the QIC’s Information Investment Subcommittee (IIS), CIO, CFO, and the QIC, as
investment criteria (e.g., cost-benefit     such was both consistent and objective. This year, we plan to revisit selection
analysis)                                   criteria and approved revised criteria (including applying weights) through the
                                            QIC.
2.4 - EPA has not formally appointed a      Inaccurate, please remove. On February 22, 2002, the CIO has appointed a Chief
Chief Architect to oversee the              Architect for EPA. The Enterprise Architecture baseline, target and sequencing
development and execution of its            approach is scheduled to be delivered to OMB on October 15, 2002.
Enterprise Architecture Plan.
2.5 - The fiscal 2002 budget did not        Inaccurate, please remove. For the fiscal 2002 budget, the architecture project
identify an architecture project.           was included as a component of integration proposals and for FY02 it was
                                            reported separately on the Exhibit 53 - Section 3.- Architecture.
2.6 - In 2001, EPA purchased a SLA to       Please restate. The Investment Management Team has assigned resources to I-
use the off-the-shelf software I-TIPS....   TIPS implementation, developed milestones for production, proceeded with
However, when requested, EPA could          implementation, and will be using I-TIPS to generate automated OMB reports for
not provide any evidence to support         this investment cycle. Further, I-TIPS will be expanded agency-wide in 2003.
that they were assigning resources or
providing milestones for implementing
the software.




                                                           49
                                                                                             Report No. 2002-P-00017
                                                                 EPA Management of Information Technology
                                                                     Resources Under The Clinger-Cohen Act

                        Chapter 2 - CIO Needs to Fully Implement Clinger-Cohen Act Requirements.
                Findings                                                         Response
2.7 - In addition, the following effects     Please restate to acknowledge the following:
are likely to occur: 1) IT investments
will no be driven by business priorities     All IT investments in the CPIC process are linked to the Agency’s strategic
and mission goals; 2) Stovepipe              goals. Significant reductions in stovepipe systems have been made through
systems will continue to operate; 3)         consolidation and / or modernization to align these systems to the architecture.
EPA will continue to invest in duplicate     Duplicate systems have been identified through the CPIC process by the
IT system; 4) IT investments will not        technical and executive management review. Proposals (e.g., Records and
take advantage of technology                 Document Management, and GEO and GIS) were combined last fiscal year to
advances and reduced costs; 5)               reduce redundancies and maximize efficiencies. For the past four years, data
reporting processes will not be made         standards questions have been required, evaluation criteria has been
efficient for states and private industry;   established, and a data standards team has reviewed proposals to ensure that
6) application systems will not comply       programs are complying with data standard requirements.
with environmental data and
interoperability standards; and 7)           Over the next couple years, Central Data Exchange (CDX) will be implemented.
increased public access and security         As CDX grows and gains wider acceptance, it will reduce the reporting burden
requirements will not be met.                on the states and private industry. Also, as the National Environmental
                                             Information Network is being constructed with input from the states and
                                             industry. The new network will greatly enhance the reporting and information
                                             exchange between the states, industry, tribes and the agency.
2.8 - During recent years, the CIO           Please restate to acknowledge those very issues targeted and addressed during
should have used an IT investment            the CPIC process. For example, the GEO investment was stopped from receiving
control process to solve key Agency-         operating plan funds in FY01 due to CPIC process findings. Also, duplicate
wide problems such as integration of         systems were identified and requested to coordinate development strategies and
environmental data, electronic               present before the IIS.
reporting,, duplicate systems,
Geospatial Information, and data
management.
           Recommendations                                                       Response
2.1 - Assign sufficient resources and        Agreed. Request for an increase in resources (extramural, FTE) has been
expertise to ensure timely and effective     submitted for the FY03 and FY04 budgeting years.
implementation of report
recommendations; and use objective,          From the inception of this process under Clinger-Cohen, management reviews
risk-based criteria to decide whether        have been risk-based. The initial method referenced the “Raines rules” following
proposed and ongoing IT investments          the approach which was then applicable on a government-wide basis.
will help resolve key Agency-wide            In the FY 02 CPIC process, the technical review team is using objective, risk-
problems and advance EPA’s IRM               based criteria by identifying weaknesses and working with program offices in
vision.                                      producing strong business cases, cost/benefit analysis, results-oriented
                                             performance measures, cost and schedules, and presenting proposal evaluation
                                             results to the QIC/Information Investment Subcommittee in a portfolio
                                             management enterprise perspective. Increased resources would enable more
                                             frequent investment reviews.




                                                            50
                                                                                             Report No. 2002-P-00017
                                                              EPA Management of Information Technology
                                                                  Resources Under The Clinger-Cohen Act

                      Chapter 2 - CIO Needs to Fully Implement Clinger-Cohen Act Requirements.
               Findings                                                         Response
2.2 - Revise EPA Directive 2100 and       Please restate to acknowledge that OEI has had a process underway since Q1/02,
related guidance to remove outdated       anticipated for completion in Q2/03. The process is to:
and unauthorized IT business                        1. Identify, from a best practices perspective, what EPA’s IT policy
practices. Incorporate appropriate                 collection should be (recommendations to be forwarded for CIO review
policies and procedures for the                    in August, 2002);
Enterprise Architecture, CPIC process,
and IT acquisitions addressed in the               2. Catalog EPA’s current IT policy collection (completion in August,
Clinger-Cohen Act, OMB guidance,                   2002);
and EPA Delegation 1-84.
                                                    3. Identify the gaps between the “should be” and “current” states i.e.,
                                                   those IT policies needing to be created, updated, or canceled
                                                   (September 2002);

                                                   4. Develop a multi-year plan for how to address the gaps and bring
                                                   EPA’s IT policy collection to the “should be” state referencing
                                                   Enterprise Architecture, CPIC, and IT acquisition processes (November,
                                                   2002).
2.3 - Work with the Director for          Please restate to acknowledge that OEI (and previously OIRM) has historically
Acquisition Management to (a) direct      worked with OARM to ensure appropriate review/concurrence for IT
contracting officers and other            acquisitions. The CIO has initiated the establishment of delegations under the
procurement personnel to only accept      Clinger-Cohen framework to ensure all IT procurements have formal management
procurement requests with a formal CIO    official approval (either CIO or someone with formal authority delegated by the
approval or officially re-delegated       CIO) before consideration by procurement personnel.
procurement authority; and (b)
establish interim delegations, policies
and procedures for IT procurement,
until formal redelegations are revised
and implemented.
                      Chapter 3 - Weaknesses in CPIC Process Place EPA’s IT Investments at Risk
               Findings                                                         Response
3.1 - However, EPA’s CPIC process         Please restate. EPA’s CPIC process has incorporated the Control phase since its
does not monitor each project’s           inception. The evaluation phase is currently being implemented. Refer to
execution during a Control phase nor      Report on Management Options for Implementing the Evaluation Phase of IT
evaluate the adequacy of completed        Capital Planning and Control, dated January 7, 200l and white paper entitled
projects in an Evaluation phase, as       Implementing the Select/Control/Evaluate Phases of Review, dated April 12,
recommended in Figure 2.                  2001. To be helpful, please identify, in the final report, specific aspects of control
                                          / evaluate phases which OIG believes require further attention.




                                                         51
                                                                                             Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act

                      Chapter 3 - Weaknesses in CPIC Process Place EPA’s IT Investments at Risk
               Findings                                                         Response
3.2 - The peer review risk assessment      This finding is inaccurate as stated. The CPIC process has four levels of
was the only substantive process used      qualitative reviews: 1) staff level - a thorough review of proposal format and
to control IT investments, and we          content is conducted; 2) technical peer review - evaluation criteria based on the
found no evidence of a quality             Raines Rules is applied and proposals are evaluated based on technical merit,
assurance process to ensure                then grouped and ranked; and 3) IIS - executive management level review to
investment proposals were accurate.        address funding and policy issues, grouped and ranked red, yellow or green.
                                           4)QIC review.
3.3 - Agency management planning and       This finding is inaccurate as stated. The FY 2002 recommendations were based
budgeting recommendations for fiscal       on the technical peer review analysis and the discussions and deliberations of
2002 were based on IIS opinion, rather     the IIS. The IIS depends heavily on the technical review results.
than objective peer review risk
evaluations.
3.4 - Table: EPA Major Investment          The percentages in these findings do not match reports and OMB statements
Proposals, Key Project Risk Factors        given by EPA and OMB. It would be helpful if the OIG presents the document
(Fiscal 2002)                              which states “OMB Assessment” amounts.

                                           Please also include the statement from OMB “We think a great deal of BCA has
                                           been performed on the majority of the portfolio.”
3.5 - Nevertheless, the IIS                This finding is misleading and should be restated or removed. Projects were
recommended to the Quality &               recommended for funding only after substantial corrective actions were taken to
Information Council and the CIO that all   make the business case, and a fourth review of the project proposal was
48 projects be recommended for             conducted. Five projects were required to address the IIS to explain and defend
funding in the fiscal 2002 budget          their business cases.
submission.
3.6 - Major projects were found to have    This is inaccurate. In 2002, the IIS red-lighted five projects, initially not flagged
material deficiencies by the peer review   by the technical peer review team. These projects were required to go before the
process, yet the IIS recommended to        IIS for further scrutiny and extensive review of the project’s business case
fund these projects in fiscal 2002. In     occurred.
fiscal 2003, the peer review process
once again stated these projects           The finding should also state that for 2003, following extensive project/portfolio
contained significant weaknesses, but      revisions per senior management direction, OMB subsequently found
IIS still recommended them for funding.    deficiencies to the business case for only 2 of 48 proposals, which they then
                                           accepted after minor revisions.
3.8 - Paragraph on CIO Needs to            The process is formalized, so please restate. For the past five years EPA has
Formalize and Institutionalize a CPIC      been conducting a Capital Planning and Investment Control process (CPIC),
Process - The CIO has yet to establish     which includes a Select and Control phase, appropriate guidance, training,
policies and guidance, and implement       evaluation criteria based from the Raines Rules, a formal technical review process
key Clinger-Cohen Act requirements by      and executive management review to evaluate proposals.
formalizing the CPIC process in Agency
Directive 2100.                            In June 2002, a final CPIC policy was issued, formalizing the process in Agency
                                           Directives.




                                                          52
                                                                                              Report No. 2002-P-00017
                                                                EPA Management of Information Technology
                                                                    Resources Under The Clinger-Cohen Act

                       Chapter 3 - Weaknesses in CPIC Process Place EPA’s IT Investments at Risk
                Findings                                                        Response
3.9 - Implementing the Federally            Please restate. There are two separate issues - implementation of I-TIPS and a
sponsored I-TIPS software, an               structured CPIC process.
automated investment control and
reporting system, would provide EPA         OEI is implementing I-TIPS and will be using it to generate OMB reports for this
with a valuable tool for monitoring and     cycle. OIG should also note that EPA’s schedule for I-TIPS implementation
managing its IT investment portfolio.       reflects the fact that I-TIPS does not conform to the Agency’s existing technical
While EPA has been using a peer             architecture and employs web-based functions with security vulnerabilities
review process to evaluate risks,           which required careful risk assessment and mitigation plans, prior to production.
management has not employed a               OEI has developed methods to address vulnerabilities and is moving forward.
structured CPIC process to maximize
the value of investments and manage         From a process perspective, EPA has consistently followed a highly structured
the risks of IT acquisition projects.       approach involving project and program managers at key decision points. The
                                            process continues to evolve and next year will integrate enterprise architecture
                                            with investment to provide further structure to the process of establishing
                                            management priorities and decision making.

                                            If OIG believes additional structure is required, specific recommendations would
                                            be helpful.


                       Chapter 3 - Weaknesses in CPIC Process Place EPA’s IT Investments at Risk
           Recommendations                                                      Response
3.2 - Formally establish objective, risk-   Please restate. EPA has in fact employed specific evaluation criteria for review of
based criteria for the IIS to use in        CPIC proposals for past CPIC cycles. The evaluation criteria was released as part
selecting and funding all IT                the annual Exhibit 300 data call so that preparers and reviewers were aware of the
investments (e.g. Chart of EPA System       criteria each proposal would be evaluated against.
Development Risk Factors). Based on
the criteria, management should not         Also, the IIS will be given a technical peer review summary of each of the
fund proposals or projects that classify    proposals prepared in accordance with the evaluation criteria and with that
as high risks.                              information will be following the OMB scoring guidelines provided in this year’s
                                            A-11 guidance. As part of the Strategic Direction for Investment Management,
                                            the IIS plans to identify business and architectural criteria for investments,
                                            Q1/03.

                                            With this established, the Agency will be able to make even more thorough,
                                            objective, risk-based evaluations of all proposals than in the past. Additional
                                            specific suggestions from OIG on how to further enhance criteria would be
                                            welcome.




                                                           53
                                                                                             Report No. 2002-P-00017
                                                                 EPA Management of Information Technology
                                                                     Resources Under The Clinger-Cohen Act

                       Chapter 3 - Weaknesses in CPIC Process Place EPA’s IT Investments at Risk
           Recommendations                                                       Response
3.3 - Postpone funding for current IT        Agreed. However, no “materially deficient” project has been recommended for
projects identified by the Peer Review       investment by the CIO. The Agency’s Information Investment Subcommittee is
process as materially deficient or high      responsible for recommending funding to the CIO regarding major IT
risk for 2 consecutive years, until          investments. Those projects identified in the Technical Peer Review process as
critical deficiencies are resolved and the   deficient are afforded the opportunity to make revisions to their proposals prior
resolution steps adequately                  to the Subcommittee’s review and, time permitting prior to the QIC’s review.
documented.                                  Forty-eight proposals submitted for funding last year to OMB were approved.

                                             For example, in FY01, the IIS advised the Acting CIO to charge a task force to
                                             develop a strategic direction and architecture for electronic records, dockets, and
                                             document management applications. The IIS made a recommendation to
                                             suspend funding for seven systems. The Acting CIO followed through on that
                                             recommendation (memo from Margaret Schneider, dated October 12, 2001,
                                             Management Task Force for Agency Document Management Systems,
                                             “...suspend spending for design and development work for all new and existing
                                             document management systems.”)
3.4 - Direct the Information Investment      Agreed. As part of ITPPD’s Investment Management strategic planning efforts,
Subcommittee to monitor the execution        and in conjunction with the use of I-TIPS, it is OEI’s vision to evolve the
of IT projects during the fiscal year (at    Agency’s capital planning process to do a continuos update and review process
least quarterly) to identify emerging        in the next two years. This continuos process will involve Program Offices
cost or schedule problems and initiate       updating their business cases as their systems develop (i.e. moving from
corrective actions.                          different life cycle or CPIC phases). Rather than relying on annual data calls for
                                             updates, this will allow the Program Office management, the Subcommittee, the
                                             QIC and the CIO’s office access to the most current information possible, thus
                                             providing them the ability to address cost or performance issues as they are
                                             identified, not just once a year.
3.5 - Initiate a formal process with         Agreed. As ITPPD prepares its Strategic Planning for IT Investment
written evaluations of ongoing,              Management, one of the areas being examined is the formalization of processes
completed, and terminated information        and evaluations in all phases of the CPIC process, including the possible
technology projects to evaluate              inclusion of Pre-Select and Steady State phases to provide management with on-
whether the projects or systems are          going evaluation monitoring.
successfully delivering promised
benefits at an acceptable cost.
3.6 - Implement an automated project         This recommendation should clearly define the difference between a portfolio
management system (e.g., I-TIPS) to          management system and a project tracking system - I-TIPS is a portfolio
provide timely, reliable information for     management system, not a project management system.
investment decisions.
                                             ITPPD is currently piloting the use of I-TIPS in EPA. ITPPD plans to populate
                                             Exhibit 300 data in I-TIPS and submit electrically to OMB (09/02). Additionally,
                                             ITPPD plans to develop an Agency-wide deployment strategy for I-TIPS in
                                             Q1/03 for FY 03-04 implementation.




                                                            54
                                                                                              Report No. 2002-P-00017
                                                                EPA Management of Information Technology
                                                                    Resources Under The Clinger-Cohen Act




                       Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
                Findings                                                        Response
4.1 - During 2001, EPA completed many       This is incorrect. The Agency’s Enterprise Architecture is posted on the EPA
actions towards establishing a baseline     Intranet and program offices were notified of its availability. The Office of
enterprise architecture for IT planning     Administration and Resources Management (OARM) was notified that the
purposes. In April, EPA provided            architecture had been published.
OMB with documentation of EPA’s
first Enterprise Architecture, dated
March 29, 2001. However, by October,
neither the Agency’s IT Contracting
Officer nor the Procurement Office had
been provided a copy of the proposed
Enterprise Architecture.
4.2 - Moreover, the document was not        Please restate. This finding does not accurately reflect that appropriate guidance
provided timely to the EPA program          was provided from the EA Team to proposal preparers on developing their 2003 /
offices for use in developing IT            2004 investments. The EA Team also worked one-on-one with program offices
investment proposals for the fiscal 2003    requesting assistance. The current enterprise architecture being developed will
budget submission.                          contain a baseline, target and sequencing approach, which will assist preparer in
                                            the 2005 exercise.
4.3 - Also, OMB reviewed the                Please acknowledge that the workgroup has updated the business processes and
Agency’s fiscal 2001 IT Investment          these processes will be aligned with the new OMB Business Reference Model.
Portfolio and noted that they could not
match the projects in the proposed
Enterprise Architecture to the portfolio.
In August 2001, OEI established a
workgroup to identify and verify EPA’s
business processes for the Enterprise
Architecture baseline. The work
group’s efforts occurred after
completion of our field work; as such,
we do not know fully what they have
accomplished.
4.4 - EPA’s outdated IRM Strategic          Please restate to acknowledge that a “Strategic Information Plan” document is in
Plan has contributed to the delay in        CIO review. The goals and direction put forth in this document are being
implementing the Enterprise                 incorporated as drivers in the target architecture development.
Architecture concept. In May 2001,
EPA established an agency-wide work
group to update the IRM Strategic
Plan. The work group provided the
draft plan to OEI’s Quality Information
Council, but it has yet to be finalized.


                                                           55
                                                                                            Report No. 2002-P-00017
                                                                 EPA Management of Information Technology
                                                                     Resources Under The Clinger-Cohen Act

                        Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
                Findings                                                        Response
4.5 - As of the end of field work, EPA       Agreed, however we have made progress, and plan to acquire QIC approval of
had yet to fully baseline and validate       the EA. Formal validation of baseline program components by the CIO and
the Agency’s business processes              senior program managers, via the QIC, is occurring this year per the management
essential for establishing a portfolio for   plan for build-out of the enterprise architecture.
future IT investments. EPA’s draft
Enterprise Architecture document
included very high-level business
processes; however, these processes
had yet to be validated by the
responsible program offices. We were
informed that some of these business
processes have been revised, but were
unable to substantiate whether the
applicable program offices formally
endorsed the work group’s
conclusions.
4.6 - Therefore, the physical and            Inaccurate. The Security Architecture does address the physical, facility and
personnel security requirements of           personnel security issues.
these servers need to be added into the
baseline security architecture.
4.7 - As depicted in Figure 3, the           This finding is inaccurate. Data standards and critical data are both integral
Enterprise Architecture conceptual           aspects of EPA’s enterprise architecture. The model specifically references data
framework should consist of five             standards, and will address program-specific data needs across several
components. As such, the Enterprise          dimensions.
Architecture should define mission-
critical data needs to properly support
the IT investment process. However,
EPA’s current Enterprise Architecture
does not adequately address (1) EPA’s
existing data standards and related
metadata baseline information, and (2)
other critical data used by stakeholders
and programs business processes.

4.8 - We had recommended that EPA            This finding is outdated and should be removed. The Enterprise Architecture
support its data standards program by        does support data standards and the EDR. The document being prepared for
using the Environmental Data Registry        OMB will clearly outline this architectural component.
as a central repository for publishing
and recording data standards. EPA has
yet to do so, and the draft Enterprise
Architecture does not adequately
describe the registry as a critical
component of its target architecture.

                                                            56
                                                                                             Report No. 2002-P-00017
                                                                EPA Management of Information Technology
                                                                    Resources Under The Clinger-Cohen Act

                       Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
                Findings                                                        Response
4.9 - Complete Inventory of Systems         The Enterprise Architecture will gather more information this year on internal
Needed for Enterprise Architecture ...      system interfaces and partner interfaces within the framework of the National
we found that the Enterprise                Environmental Information Network (NEIN). The target architecture and
Architecture document does not              sequencing plan will also take into account the impact of external federal Agency
include sufficient information on           interfaces and E-gov directions.
Agency application interfaces. The
document states the CIO plans to
gather and document this information
as part of the Agency’s ongoing
application inventory initiative,
including documentation regarding
major interfaces with applications
outside of the Agency.
4.10 - Our review showed that the           This finding does not provide relevant or helpful direction. Normally, this level
Enterprise Architecture document did        of detail is not in an Enterprise Architecture document. Transaction response
not explicitly identify minimum             requirements for critical data streams will be considered as a factor in the
response times for key transaction-         development of the technical architecture, which must be scaled and engineered
based systems and for business              to support such needs.
application systems on the Agency’s
wide area network.
4.11 - We believe the VPN concept is        OEI agrees with the importance of secure external communications. This year
needed today to help the Agency             OEI is taking the critical steps to establish secure external partner levels of
comply with existing Federal                access with implementation planned to start next year and full operations to be
telecommuting statutory requirements        available on an enterprise basis in 2004 (pending continued availability of
and to satisfy current business needs.      resources).
4.12 - Also, EPA needs to define the        This recommendation is outdated and should be refined. On February 22, 2002,
role and authority of its Chief Architect   the CIO via electronic email, established the Enterprise Architecture Program and
for IRM. The role of this Chief             named John Sullivan as Chief Architect for EPA. If additional authority is
Architect is to oversee development         needed in the view of OIG, specific deficiencies should be noted.
and coordination of the Enterprise
Architecture with other planning
elements that should materially shape
and drive the IT planning structure.
The CIO named an individual to this
role in February 2002 (via electronic
mail), but there has been no formal
definition of the position’s scope and
responsibilities, nor any official
delegation of authority.




                                                           57
                                                                                             Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act

                      Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
               Findings                                                         Response
4.13 - To EPA’s credit, management         This finding should be rephrased. The functional areas identified in the
established a central Enterprise           recommendation are all included within the strategic activities underway this year
Architecture workgroup in August           and planned for next year. Please restate the recommendation to acknowledge
2001. However, no permanent central        the importance of the ongoing efforts being made to address these needs.
organization has been established or
assigned resources to coordinate,
develop, and maintain the Enterprise
Architecture. Agency-wide Enterprise
Architecture components need to be
addressed and maintained for the
following functional areas: the
identification of EPA’s major and
significant systems; defining the
security architecture; validating the
business processes with program
offices; developing the Middleware
architecture and defining baseline
telecommunication requirements;
defining Working Capital Fund capital
investments; and approving individual
IT project management plans for major
projects or systems.
4.14 - In its fiscal 2003 budget           This finding is inaccurate and does not accurately reflect the continuity of
submission, EPA identified the             results and the connection of that project with the Enterprise Architecture
Information Integration Program as its     program. The products from the Information Integration Program are the basis
only major architectural project for       for the target architecture of the environmental business area. Please restate this
deriving and completing an enterprise      finding to acknowledge the intent and proposed products of the Information
architecture. As critical as the project   Integration Program.
is to EPA’s Enterprise Architecture
development efforts, no final
management work plan has been
implemented for this project since the
draft was issued in December 2000. A
final work plan is essential to ensuring
the timely success of the individual
program, as well as the overall quality
of the Enterprise Architecture Plan and
the Agency’s future technology
investments. Although EPA views the
program as key to improving the overall
integration of environmental
information, this project does not
report to the Chief Architect.

                                                          58
                                                                                            Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act

                       Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
               Findings                                                        Response
4.15 - The Chief Architect provided        We agree that clear roles and responsibilities are essential in defining the
information that indicates EPA’s           Enterprise Architecture. We have taken the necessary steps to ensure
program and regional offices will be       participants are clearly aware of their respective roles and responsibilities. The
asked to co-develop the Agency's           Chief Architect and the Enterprise Architecture team are working with program
baseline and target elements for the       and regional representatives at the staff level to develop requirements and
enterprise architecture. With OEI's        validate Agency-wide perspectives. At the same time, the Chief Architect is
leadership and facilitation, the program   preparing explicit guidance, including senior management roles, to formally
and regional offices will conduct their    record roles and responsibilities of program and regional offices for the
own architectural needs analysis, and      architecture. This framework for Enterprise Architecture policy and practice will
realign their respective systems with      be reviewed by the CIO and senior managers at a forthcoming QIC meeting in
EPA’s evolving target. We were             July, per the schedule presented to the QIC on 6/26/2002.
unable to substantiate how this will be
accomplished. The participants will
need a clear understanding of their
roles and responsibilities, as well as
their respective business processes, if
they are to play a significant role in
helping define the enterprise
architecture.
                       Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
          Recommendations                                                      Response
4.1 - As the number one priority, we       This recommendation should be rephrased to acknowledge the efforts underway
recommend that the Chief Information       to plan, manage, monitor and control the development and implementation of the
Officer formally establish:                Enterprise Architecture.
 (a)      an Enterprise Architecture
         program to plan, manage,          The Chief Architect, through direct and ongoing consultation with the CIO, has
         monitor, and control the          been directing and coordinating the Agency’s efforts to create an architecture
         development and maintenance       and architecture program. The Chief Architect is working with the CIO and Chief
         of the plan.                      Technology Officer (CTO) to promulgate an Agency-wide framework for
(b)      the Chief Architect position      managing the establishment and implementation of the Enterprise Architecture.
         by clearly defining the role,     This framework will be a major focus for senior executive discussion and decision
         responsibility and authority of   at the July meeting of the QIC.
         the job. The position should
         ensure a system of                We would appreciate any subsequent OIG recommendations that focus on
         accountability for the overall    additional steps required to support this effort.
         architectural effort. This
         would include coordinating
         and overseeing resources for
         IRM strategic planning and
         the Information Integration
         Program, and reporting
         directly to the CIO.


                                                          59
                                                                                            Report No. 2002-P-00017
                                                                EPA Management of Information Technology
                                                                    Resources Under The Clinger-Cohen Act

                       Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
           Recommendations                                                      Response
4.2 - Under the leadership of the Chief     The Chief Architect and the Architecture Team are responsible for creating,
Architect, update and maintain the          updating and maintaining the Agency’s architecture. As part of creating the
Agency IRM Strategic Plan to support        architecture, the Chief Architecture must coordinate and participate in the
EPA’s Strategic Plan, its Government        strategic planning process, GPRA and other efforts. OEI is producing a
Performance and Results Act                 “Strategic Information Plan” under direction of the OEI - Office of Information
requirements, and the Enterprise            Collection (OIC). This Plan will be used as a driver for the EA development.
Architecture.
4.3 - Identify current major and            EPA agrees with this recommendation. The Enterprise Architecture will
significant general and application         incorporate all systems (major and significant as defined in the CPIC) and others
systems to establish an accurate            into the Information Resources Registry System - which will serve as the Agency
inventory of such systems and               Applications Inventory. The IRRS is scheduled to be operational by the end
integrate this information with both the    FY02. A linkage between the IRRS and the EA repository is planned. All
Agency’s Enterprise Architecture            application systems within the purview of CPIC review are included in the
application component and the IT CPIC       baseline applications architecture.
Portfolio.
4.4 - Develop a master project plan for     EPA agrees with this recommendation. The Enterprise Team has an overall
completion of all parts of the Enterprise   management plan and project plan that contains the detail tasks and subtasks to
Architecture, including a breakdown of      develop the Enterprise Architecture. Additionally, the Team is in the process of
the tasks and subtasks needed to            identifying a change management process for updates to the Agency’s
acquire, develop, and maintain the          architecture.
Enterprise Architecture.
4.5 - Establish an information              Please restate this recommendation to reflect efforts already underway. OEI has
repository, require the use of a data       established an EA repository in which the Agency’s business, data,
registry for Agency maintained data,        applications, and technologies are mapped and interlinked. As part of the CPIC
map EPA’s data and information              process, programs will be required to ensure their systems are represented in the
resources, and adopt life-cycle data        EA repository and applications inventory. The Enterprise Architecture Team is
management principles for the               coordinating efforts with the ITPPD’s efforts to update the Agency’s life-cycle
Enterprise Architecture data and            principles currently being developed to produce a “cook book” on systems
systems components.                         development that will align the Systems Lifecycle policy, the CPIC Process and
                                            the Enterprise Architecture.
4. 6 - Use a top management                 EPA agrees with this recommendation. The Enterprise Architecture is presented
verification, validation, and approval      to the Quality Information Council for recommendation to the CIO for approval.
process to ensure program business          An EA change management and configuration control process is being
processes and goals are accurately          developed to formalize the process of updating the architecture. The Chief
reflected and incorporated into the         Architect is preparing explicit guidance, including senior management roles, to
Enterprise Architecture. Subsequently,      formally record roles and responsibilities of program and regional offices for the
formalize the process as a discipline for   architecture. This framework for Enterprise Architecture policy and practice will
updating the Enterprise Architecture        be reviewed by the CIO and senior managers at a forthcoming QIC meeting in
document.                                   July, per the schedule presented to the QIC on 6/26/2002.




                                                           60
                                                                                             Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act

                       Chapter 4 - EPA Needs to Organize and Integrate Planning for IT Investments
           Recommendations                                                      Response
4.7 - Coordinate the Enterprise            EPA agrees with this recommendation. In addition to formal promulgation of
Architecture document with the             acquisition authority and delegations by the CIO, once the EA version 1.0 is
Agency’s Office of Acquisition             approved by the CIO, the EA team will work with OAM to broaden the current
Management for future IT acquisitions.     contracting clauses to ensure compliance with the EA.
Jointly develop an approval process
that ensures the Enterprise
Architecture concept is incorporated in
IT contract activities for large and
significant IT projects.
4.8 - Develop a Middleware                 Please rephrase this recommendation. As part of the Target Architecture
Architecture as part of the Enterprise     (Q4/02), the data warehouse methodology and platforms will be determined. The
Architecture technology component to:      detailed design of the warehouse (whether it is virtual or physical) will be
define the components that interface       contained in the Technical Reference Model, which is being developed as part of
among the client and server systems;       the EA. OIG recommendations should be cautious when making specific
improve the overall usability of the       technical references (e.g. linking client-server systems with the repository) as the
distributed architecture; and integrate    target technical architecture is likely to move the Agency towards new models.
the information repository with the
client-server systems.
4.9 - Establish a comprehensive and        OEI agrees with the importance of this recommendation and its importance for
explicitly defined set of baseline         the technical architecture. Telecommunications requirements to support a
telecommunications requirements to         scalable, reliable, and secure network infrastructure, bandwidth capacity, and
support a scalable, reliable, and secure   additional network capacity are essential components of the Technology
network infrastructure for the             Architecture Segment. OEI is working with OCFO and senior agency managers
Enterprise Architecture technology         to define a fiduciary and technical management strategy that will address current
component. Also, address existing          technical architecture shortfalls and provide more effective methods to maintain
bandwidth shortages and provide for        the technology in the future.
additional network capacity to support
current business needs and take
advantage of technology advances.


Chapter 5 - EPA Needs to Strengthen IT Project Management Criteria
                Findings                                                        Response
5.1 - Paragraph on No Reliance or Value    Please discard this finding, it is inaccurate. Over the past five years of the CPIC
Placed on EPA’s IT CPIC Process            process, the Investment Management Team has worked with over 50 different
                                           program mangers at one time or another. We have received positive comments
                                           from program managers that the process has forced them to rethink their
                                           investments and to pay closer attention to costs, schedule, and milestones. EPA
                                           does acknowledge and place value on the need for the IT CPIC process.




                                                          61
                                                                                             Report No. 2002-P-00017
                                                              EPA Management of Information Technology
                                                                  Resources Under The Clinger-Cohen Act

5.2 - EPA had not adopted standard        Please revise this statement, it is inaccurate. First, with the development of the
tools to help managers plan, control,     CFO Comptroller Policy Announcement 01-10 and the IT Cost Tracking system,
and evaluate IT investment projects       program offices are required to track project costs. Secondly, as program offices
and track project costs, schedules, and   implement this requirement, it clearly complements and links to project planning
resources.                                and work plan development.
5.3 - The absence of key decision         Please restate this finding to acknowledge efforts of the senior management and
documents and senior management           decision making body of the QIC. The QIC, referencing recorded
approval increase the risk that funded    recommendations from the IIS, formally acts on each IT investment. Formal
IT projects will evolve in an             meeting notes are taken at each subcommittee meeting, reviewed and approved
unstructured, untimely, and costly        by the co-chairs, and starting in January 2002, co-chairs signed the meeting
manner.                                   notes before being distributed to subcommittee members.


                          Chapter 5 - EPA Needs to Strengthen IT Project Management Criteria
          Recommendations                                                     Response
5.1 - We recommend the Chief              EPA agrees with this recommendation. As OEI prepares its Strategic Planning for
Information Officer monitor IT            IT Investment Management, one of the areas being examined is the formalization
investments to ensure that SMPs are       of processes and evaluations in all phases of the CPIC process, including the
prepared in accordance with Agency        possible inclusion of a Pre-Select phase. The Pre-Select phase will allow the
requirements, and that they               Agency to ensure that all proposed systems in the system lifecycle planning
appropriately link to the respective      process are aligned with Agency requirements on enterprise architecture,
Clinger-Cohen Act submission              security, etc. This Pre-Select phase will allow EPA to ensure compliance with
documents the Enterprise Architecture     Systems Lifecycle Policy in advance of a system entering the Select Phase.
and other planning documents.
5.2 - We recommend the Chief              Please rephrase this recommendation to accurately reflect the current process in
Information Officer re-evaluate funding   place. Systems without sufficient justification to cost and schedule variances
for IT investments that do not provide    greater than 10% are not recommended for funding. As part of the Exhibit 300
sufficient written justifications for     submission, OMB is requiring that all major systems provide a breakdown of
projects exceeding budgeted costs or      costs and schedule performance from their original baseline. The Chief
project milestone schedules by more       Information Officer does not recommend investments for projects with
than 10 percent.                          insufficient justification or those with excessive cost and schedule variances.
5.3 - We recommend the Chief              OEI does not agree that it is necessary or appropriate to prescribe uniform tools
Information Officer prescribe standard    for managing system development projects and software changes since it is
tools for managing system                 unclear at this time that there is one set of tools which meets the needs of all
development projects and for managing     system development efforts in a cost-effective manner. However, OEI does
software changes, as part of the          intend to broaden the scope and usefulness of I-TIPS with particular attention to
development of consistent definitions     linkages between I-TIPS and Agency financial data for IT cost tracking. OEI is
of system life cycle stages to be used    also leading an effort to update EPA’s System Life Cycle Policy. The updated
for IT systems and project                policy will provide appropriate consistent definitions, lay out the requirements
management. The selected tool should      that must be met when an Agency office develops a new system, provide
be approved by the Chief Financial        appropriate system development management methodology options, and
Officer as being compatible with the      encourage the use of “best practice” project management principles and
Agency’s cost accounting system.          techniques. The selected “tools” will be compatible with the Agency’s Financial
                                          systems.



                                                         62
                                                                                           Report No. 2002-P-00017
                                                               EPA Management of Information Technology
                                                                   Resources Under The Clinger-Cohen Act

                          Chapter 5 - EPA Needs to Strengthen IT Project Management Criteria
          Recommendations                                                       Response
5.4 - We recommend the Air Quality        Please see the memo from William T. Harnett to Patricia H. Hill dated 5/28/02.
System Project Manager update the
SMP for the Air Quality System project
and obtain the signature of approval of
the Assistant Administrator for Air and
Radiation at the conclusion of the
analysis stage and for major and
significance enhancements.
5.5 - We recommend the RCRA               Please see the memo from Marianne Lamont Horinko to Kimberly Nelson dated
Information Project Manager revise the    6/14/02.
Project Management Plan for the
RCRAInfo project to make it equivalent
to an SMP, and update the document
for planned system design changes
and enhancements. In addition, the
revised SMP should be formally
approved by the Assistant
Administrator for Solid Waste and
Emergency Response to authorize
funding for the IT investment and to
ensure a system of accountability.
5.6 - We recommend the                    We agree with this recommendation and SDWIS/STATE has all the components
SDWIS/STATE Project Manager               of a Systems Management Plan. However, the project has not compiled the
establish an SMP for the                  information into a single document for signature for the following reasons: First,
SDWIS/STATE project and obtain the        we have not been able to identify the format the agency wishes for the SMP and
signature of approval from the            second, a SMP was not specifically required when the project began.
Assistant Administrator for Water at
the conclusion of the analysis stage      Part of our plan for this fiscal year (may slide to early next FY) is to compile the
and for major and significant             document and present it to management.
enhancements.
5.7 - We recommend the Project            OAR -- Please see the memo from William T. Harnett to Patricia H. Hill dated
Managers for the Air Quality System,      5/28/02.
RCRAInfo, and SDWIS/STATE link the
SMP to the Agency Clinger-Cohen Act       OW -- When the SMP document is completed it shall be linked to all IT
submission documents and the              submissions (where applicable).
Enterprise Architecture and planning
documents.                                OSWER – Please see the memo from Marianne Lamont Horinko to Kimberly
                                          Nelson dated 6/14/02.




                                                          63
                                                                                             Report No. 2002-P-00017
                                                                EPA Management of Information Technology
                                                                    Resources Under The Clinger-Cohen Act

                            Chapter 5 - EPA Needs to Strengthen IT Project Management Criteria
           Recommendations                                                       Response
5.8 - We recommend the Project              OAR -- Please see the memo from William T. Harnett to Patricia H. Hill dated
Managers for the Air Quality System,        5/28/02.
RCRAInfo, and SDWIS/STATE
manage project development efforts in       OW -- We agree that the documents that go into the SMP should be updated
accordance with the SMP, as updated,        throughout the life-cycle of the system. We currently do this and with each new
throughout the life cycle of the system,    release the following documents are updated (among others): requirements,
and retain the SMP for reference and        design, testing, and user documentation. Also, each fiscal year we produce a
review by the CIO or the CIO’s              new work plan. Finally, we continuously, update and track our financial reports.
designated review official.
                                            OSWER – Please see the memo from Marianne Lamont Horinko to Kimberly
                                            Nelson dated 6/14/02.


                Chapter 6 - Project Cost Accounting System Vital for Planning & Managing IT Investments
                Findings                                                         Response
6.1 - Our concern is compounded by          Please restate this finding to accurately reflect efforts in the Systems Life Cycle
the fact that the three system life cycle   work group and the IT Cost Tracking work group. Participants from OEI and
categories set forth in the Policy          OCFO are on both work groups coordinating the IT Cost Tracking system
Announcement are inconsistent with          guidance, which includes policy development, and the Systems Life Cycle
the phases described in EPA Directive       development, updating our system life cycle policy. The life cycle categories
2100.                                       stated in the policy announcement reflect the new work that is being done to
                                            update the systems life cycle policy.
           Recommendations                                                       Response
6.1 - We recommend the Chief                Please acknowledge the current ongoing efforts underway to meet this
Information Officer, Chief Financial        recommendation. ITPPD is currently leading an effort to update EPA’s System
Officer, and Assistant Administrator        Life Cycle Policy. This effort will develop consistent definitions that can be used,
for Acquisition Management work             to the extent practicable, throughout the Agency’s varied processes that relate
together to develop consistent              to IT systems development. Additionally, ITPPD is supporting OCFO efforts in
definitions of systems life cycle stages    developing an IT Cost Tracking system. As this system matures and focuses on
and IT costs to be used for contracting,    capturing “actual” budget cost data more accurately, and comprehensive training
accounting, IT systems, project             is provided to program offices, management will be able to make better decisions
management, and the capital planning        to evaluate investment priorities.
investment control process.
                                            OCFO and OARM - submitting response under separate cover.




                                                           64
                                                                                              Report No. 2002-P-00017
                                                              EPA Management of Information Technology
                                                                  Resources Under The Clinger-Cohen Act

          Recommendations                                                      Response
6.2 - We recommend the Chief              OEI – With the following ongoing efforts - the updated Systems Life Cycle
Information Officer, Chief Financial      Policy, the interim CPIC Policy (final soon to be released), architecture and the IT
Officer, and Assistant Administrator      Cost Tracking system - the modular contracting approach will be supported,
for Acquisition Management work           contractors will have better guidance on providing development costs, and
together to amend all current Agency      management will be able to make better decisions on investments. Please
software development contracts, and       acknowledge these efforts in your recommendation.
require that all future IT software
development contracts be written to       OCFO and OARM - submitting response under separate cover.
require a contractor to break out and
separately report all IT software
development costs by the system
development life cycle.
6.3 - We recommend the CIO and Chief      OEI -- Please restate this recommendation to accurately reflect the current efforts
Financial Officer work together to        being developed between OEI and OCFO. ITPPD is currently leading an effort to
develop consistent systems life cycle     update EPA’s System Life Cycle Policy. This effort will develop consistent
and IT costs definitions for revising     definitions that can be used, to the extent practicable, throughout the Agency’s
EPA Directive 2100, and the interim IT    varied processes that relate to IT systems development.
activities policy guidance.
                                          OCFO – submitting response under separate cover.
6.4 - We recommend Chief Financial        Submitting response under separate cover.
Officer lead an effort to complete a
needs and feasibility assessment of
alternatives to determine what types of
project cost information and
supporting documentation are needed
for the capital planning investment
control process and managing IT
projects.




                                                         65
                                                                                            Report No. 2002-P-00017
     EPA Management of Information Technology
         Resources Under The Clinger-Cohen Act




66
                          Report No. 2002-P-00017
                                                        EPA Management of Information Technology
                                                            Resources Under The Clinger-Cohen Act


                                      Appendix 3
                     Office of Chief Financial Officer’s
                      Response to Draft Audit Report
                                             July 19, 2002

MEMORANDUM

SUBJECT:           Draft Report on Management of Information Technology Resources
                   Inspector General Audit Number 2001-0591

FROM:              Joseph L. Dillon              /s/
                   Comptroller

TO:                Patricia Hill
                   Director for Business Systems (2421)

        I appreciate the opportunity to respond to your draft report titled “EPA’s Management of
Information Technology Resources under the Clinger-Cohen Act,” Audit Number 2001-0591. The Office
of the Chief Financial Officer (OCFO) fully supports your emphasis on effective management controls over
EPA’s information technology (IT) portfolio and, as you recommend, we are working closely with the
Office of Environmental Information (OEI), the Office of Administration and Resources Management
(OARM), and others.

        Chapter 6 of your draft, “Project Cost Accounting System Vital for Planning and Managing IT
Investments” makes four recommendations for OCFO. A discussion of recent OCFO progress in
implementing IT cost accounting is below. Specific responses to your draft recommendations for OCFO
are attached.

       As you note, Comptroller Policy Announcement No. 01-10, “New Information Technology
Accounting Requirements” (PA), has been in effect since October 1, 2001. The PA established a standard
method of tracking all IT related costs in the Integrated Financial Management System (IFMS).

        As the PA states, OCFO recognizes that the IT cost accounting “procedures represent a new way
of doing business in the Agency.” We are now evaluating results and have implemented a quality assurance
process to ensure the accuracy of the cost data for both large IT systems and projects, and for smaller
projects and general IT activities.



                                                   67
                                                                                Report No. 2002-P-00017
                                                          EPA Management of Information Technology
                                                              Resources Under The Clinger-Cohen Act
        To help familiarize staff with the new information and its uses, an IT Cost Accounting section has
been added to OCFO@work at http://intranet.epa.gov/ocfo/policies/itcostacctg.htm. The section includes,
as promised in my November 19, 2001 response to your preliminary finding outlines and position papers,
several reports on FY 2002 spending for IT. OCFO plans to add instructional materials for system
owners, funds control officers, and others to this page.

        To build on this year’s experience, OCFO staff are working closely with OEI, the contracts
community, headquarters SIRMOs, regional IRM branch chiefs, a regional comptroller, and others. For
example, most regions are voluntarily piloting a method that uses two characters to classify their IT
investment in greater detail than required by the PA. Results of the pilot are now being evaluated, and
proposals are on the table to require a similar level of detail agency wide. Our goal is high quality cost
accounting without overly burdensome and time consuming requirements.

        Sue Arnold 202-564-5192 can answer any questions.

Attachment

cc:     Linda Combs
        Mike Ryan
        Mark Day
        Terry Ouverson
        Jim Rothwell
        John Gherardini
        Larry Wyborski
        Krista Mainess




                                                     68
                                                                                   Report No. 2002-P-00017
                                                        EPA Management of Information Technology
                                                            Resources Under The Clinger-Cohen Act
                                    OCFO RESPONSES TO
                               OIG DRAFT RECOMMENDATIONS



Chapter 6 of the Inspector General’s Draft Report on Management of Information Technology Resources
offers four recommendations for the CFO. OCFO’s responses are below.

Recommendation 6-1 - Develop consistent definitions of systems life cycle stages and IT costs to be used
for contracting, accounting, IT systems, project management, and the capital planning investment control
process. (Joint recommendation for the CIO, CFO and Assistant Administrator, OARM)

   Response - Comptroller Policy Announcement No. 01-10, “New Information Technology Accounting
   Requirements” (PA) includes these detailed definitions. To help ensure consistency across the Agency,
   OCFO has been an active participant in OEI’s workgroup to update IRM Policy Manual 2100,
   Chapter 17 - System Life Cycle Management, since the workgroup’s inception in November 2001.

Recommendation 6-2 - Amend all current Agency software development contracts, and require that all
future IT software development contracts be written to require a contractor to break out and separately
report all IT software development costs by the system development life cycle. (Joint recommendation for
the CIO, CFO and Assistant Administrator, OARM)

   Response - Attachment B of the PA requires that procurement documents show the life cycle phase,
   allowing software development costs to be easily rolled up for capitalization. Attachment A requires
   that project officers (POs), delivery order project officers (DOPO), and contracting officer technical
   representatives (COTRs) ensure proper IT coding on funding documents, proper allocation of IT
   activities on invoice payments, and proper classification of projects and systems under their control.

Recommendation 6-3 - Develop consistent systems life cycle and IT costs definitions for revising EPA
Directive 2100, and the interim IT activities policy guidance. (Joint recommendation for the CIO and
CFO)

   Response - Please see response to Recommendation 6-1.




                                                   69
                                                                                 Report No. 2002-P-00017
                                                       EPA Management of Information Technology
                                                           Resources Under The Clinger-Cohen Act
Recommendation 6-4 - Complete a needs and feasibility assessment of alternatives to determine what
types of project cost information and supporting documentation are needed for the capital planning
investment control process and managing IT projects.

   Response - As stated above, OCFO is now implementing a structured plan to evaluate the cost
   information now required by the PA and to make appropriate refinements. We are working closely
   with OEI in the light of OMB’s new CPIC requirements, as well as with OARM, headquarters
   SIRMOs, Regional IRM Branch Chiefs, representatives from the funds control and finance
   communities, and others.




                                                  70
                                                                              Report No. 2002-P-00017
                                                                  EPA Management of Information Technology
                                                                      Resources Under The Clinger-Cohen Act


                                             Appendix 4
            Office of Air Quality Planning and Standards’
                   Response to Draft Audit Report

                                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       Office of Air Quality Planning and Standards
                                            Research Triangle Park, NC 27711




                                                     May 28 2002


MEMORANDUM

SUBJECT:          Response to April 26, 2002 request for comments on Clinger-Cohen Act


FROM:             William T. Harnett, Director
                  Information Transfer and Program Integration Division (MC-C304-03)

TO:               Patricia H. Hill, Director for Business Systems
                  Office of the Inspector General for Audit (MC-2421)

         This memorandum responds to your April 26 request for comments on the IG’s recently released draft report
“EPA Management of Information Technology Resources under the Clinger-Cohen Act”. The report primarily
discusses how Office of Environmental Information (OEI) and the Chief Information Officer have implemented this
important legislation. The report also refers to certain Agency data systems, such as Air Quality System (AQS). In
this respect, the report mentions AQS in two places.

         One, on page 32, is in relation to an IG recommendation that a System Modernization Plan (SMP) be prepared
for AQS and approved by the Assistant Administrator/Office of Air and Radiation (OAR). We generally agree with
this and plan to revise the SMP and submit it for concurrence.

          The other reference is on page 9. In this case, we are uncertain of the scope of the issue and have copied the
full paragraph from the draft to illustrate our uncertainty.

         “The slowly evolving and decentralized approach being used to develop an IT investment control
         structure has not been successful. EPA’s approach allowed IT projects to be funded without proper
         justification, and in the absence of adequate management controls. EPA invested resources on outdated
         systems that did not maximize the efficiency or resolve long-standing problems, such as integration of
         environmental data. For example, the Air Quality System was funded $2.5 million for fiscal 2001,
         although planned modifications did not include adapting the system to function in conjunction with EPA’s
         Central Data Exchange portal”.



                                                             71
                                                                                              Report No. 2002-P-00017
                                                                 EPA Management of Information Technology
                                                                     Resources Under The Clinger-Cohen Act
                                                            2

           From the last sentence, it appears there is a concern that AQS was not a part of Central Data Exchange
(CDX) in fiscal 01. However, given the preceding sentences, it appears there is also a concern that AQS is a project
funded without proper justification and without management controls. In addition, it could be interpreted there is a
concern that AQS is an outdated system. We do not believe the report provides an accurate characterization of AQS
if all of these concerns are intended for AQS.


         With respect to the comment about AQS and the CDX, the AQS Information Technology (IT) budget
proposal submitted in FY-01 did include our intent to work with OEI on a joint CDX pilot project in FY-02. In fact,
OEI/OAR staff were actively meeting in FY-01 to develop a work plan which was submitted to the Quality and
Information Council in late 2001 and approved in early 2002 (along with funding from the Agency’s System
Modernization Fund). Work is now underway.

         We also disagree with the IG comment that seems to imply that AQS is an outdated systems that does not
maximize the efficiency or resolve long standing problems such as integration of environmental data. The AQS is an
Oracle relational data base which is the Agency’s recommended architecture for such applications. One benefit of
Oracle systems is their ability to be integrated with data from other Oracle data bases (such as those being developed
throughout the Agency). This technology is consistent with the Agency’s approach for data integration; it is not
outdated technology.

          If the report is intended to also portray AQS as a system with a lack of proper justification and absence of
adequate management controls, material support for this conclusion is lacking in the narrative. We are hopeful the
first two sentences of the above citation were not intended to apply to AQS. If they do apply, further explanation is
essential. In either case, some editing of the paragraph is recommended.

        In summary, we believe this paragraph mischaracterizes the AQS system in many respects. I believe a
conference call with you or your staff would be helpful.

         Again, thank you for the opportunity to comment and I look forward to discussing the matter with you at
your earliest convenience.

cc: J. Seitz, OAQPS
    T. Curran, OAQPS
    B. Kellam, ITPID
    E. Lillis, ITPID
    J. Summers, ITPID
    I. Spons
    R. Slade




                                                            72
                                                                                              Report No. 2002-P-00017
                                                           EPA Management of Information Technology
                                                               Resources Under The Clinger-Cohen Act

                                      Appendix 5
      Office of Solid Waste and Emergency Response’s
                Response to Draft Audit Report

                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460

                                                JUN 1 4 2002

                                                                                       OFFICE
                                                                           SOLID WASTE AND EMERGENCY
                                                                                     RESPONSE




MEMORANDUM

SUBJECT:        OIG Draft Report "EPA's Management of Information Technology Resources Under the
                Clinger-Cohen Act" Audit Number 2001-0591



FROM:           Marianne Lamont Horinko
                Assistant Administrator

TO:             Kimberly Nelson
                Chief Information Officer (2823)

The Office of Solid Waste (OSW) agrees in principle with the general spirit of the OIG report and concurs
with the suggested future approaches to system development and project management in EPA. However,
contrary to its portrayal in the draft report, we believe that RCRAInfo serves as a model for modular
system development, rather than an example for how not to develop systems in our agency. The modular
approach has enabled RCRAInfo to remain flexible to the changing needs of our constituent groups and
allowed us to avoid some administrative pitfalls other projects have encountered. It has also eased the
administrative burden.

The modular approach uses the Program Area Analysis in its development of requirements for
RCRAInfo, which is then approved by senior management before actual development occurs. This
inevitably leads to RCRAInfo being in more than one stage of the system development life cycle. We
made this choice intentional to allow the system to adapt in a timely, flexible manner to changing
program requirements. Before the beginning of each major project within RCRAInfo, senior
managers agreed on the need, and benefit, of continuing with that specific project. Senior managers
also agreed on levels of funding for each project.

On page 31, the report states that, "Despite several years of effort, management was still defining
RCRAInfo requirements'. While some requirements are still being defined for a few RCRAInfo modules,
the majority of the RCRAInfo modules are well past this stage and in the development stage. OSW
believes that the use of the Information Engineering model, combined with the separation of RCRAInfo
into distinct modules that can be independently analyzed and developed, is an appropriate methodology to
use for a large, complicated, and dynamic system such as RCRAInfo.

Additionally, the report implies that work on the most crucial modules was put off while earlier modules
were developed. The report fails to mention that EPA and its State partners deliberately approached each
RCRAInfo module in a consensus order established by senior decision makers. To make the broad RCRA
                                                      73
                                                                                  Report No. 2002-P-00017
                                                          EPA Management of Information Technology
                                                                Resources Under The Clinger-Cohen Act
analysis more useful, EPA and the States decided which 5 areas were appropriate for detailed analysis and
on the order in which modules would be pursued. Staging the analysis in this manner allowed a number of
improvements to move forward (e.g., one recommendation from an early module led to consolidating site
information across three different mechanisms into a single form) while appropriate expertise (e.g.,
compliance personnel) could be directed at the last two modules on a separate track. The schedule also
reflected the availability of key/personnel to work on modules.

Finally, the following comments are offered regarding recommendations made specifically for
RCRAInfo:

Recommendation 5-5: Revise the Project Management Plan for the RCRAInfo project to make it
equivalent to a System Management Plan (SMP) and update the document for planned system
design changes and enhancements. In addition, the revised System Management Plan (SMP) should
be formally approved by the Assistant Administrator for Solid Waste and Emergency Response to
authorize funding for the IT investment and to ensure a system of accountability.

Recommendation 5-7: Link the SMP to the Agency Clinger-Cohen Act submission documents
and the Enterprise Architecture and planning documents.

Recommendation 5-8: Manage project development efforts in accordance with the SMP, as
updated, throughout the life cycle of the system, and retain the SMP for reference and review by
the CIO or the CIO's designated review official.

We feel the current development and management structure in place for RCRAInfo already meets the
recommended actions and that no change is needed in that structure. RCRAInfo has a System
Management Plan (SMP) in place, as well as a change and enhancement plan. In addition to the Capital
Planning and Investment Control Proposal (CPIC) process, RCRAInfo adheres to a formal approval
process for the Assistant Administrator for the Office of Solid Waste and Emergency Response to
authorize funding for the IT investment and to ensure a system of accountability.

cc:     Jeff Worthington
        William Ocampo
        Brion Cook
        Linda Travers
        Linda Garrison




                                                    74
                                                                                  Report No. 2002-P-00017
                                                      EPA Management of Information Technology
                                                          Resources Under The Clinger-Cohen Act


                                 Appendix 6
                               Report Distribution

Headquarters
     Administrator
     Deputy Administrator
     Chief Financial Officer
     Assistant Administrator for Air and Radiation
     Assistant Administrator for Enforcement and Compliance Assurance
     Assistant Administrator for Environmental Information
     Assistant Administrator for Solid Waste and Emergency Response
     Associate Administrator for Congressional and Intergovernmental Relations
     Associate Administrator for Regional Operations and State/Local Relations
     Associate Administrator for Congressional and Legislative Affairs
     Associate Administrator for Communications, Education, and Public Affairs
     Agency Followup Official (2710)
     Agency Followup Coordinator (2724)
     Headquarters Library


Office of Inspector General
     Inspector General


Regional Offices
     Regional Administrators
     Regional Libraries


Other
     General Accounting Office
     National Academy of Public Administration




                                                 75
                                                                            Report No. 2002-P-00017
